APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Ninth Circuit
(August 23, 2019)............................................................................................. App. 1
Amended Order in the United States District Court for the Central
District of California (August 10, 2017) ............................................................. App. 31
Final Judgment against Hui Feng and Law Offices of Feng &
Associates, P.C. in the United States District Court for the Central
District of California (August 10, 2017) ....................................................... App. 56
Order Denying Rehearing in the United States Court of Appeals for the
Ninth Circuit (July 31, 2020) ........................................................................ App. 62

i

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 1 of 30

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
U.S. SECURITIES & EXCHANGE
COMMISSION,
Plaintiff-Appellee,
v.
HUI FENG; LAW OFFICES OF FENG
AND ASSOCIATES PC,
Defendants-Appellants.

No. 17-56522
D.C. No.
2:15-cv-09420CBM-SS
OPINION

Appeal from the United States District Court
for the Central District of California
Consuelo B. Marshall, District Judge, Presiding
Argued and Submitted May 16, 2019
Pasadena, California
Filed August 23, 2019
Before: Kermit V. Lipez, * Kim McLane Wardlaw,
and Andrew D. Hurwitz, Circuit Judges.
Opinion by Judge Lipez

The Honorable Kermit V. Lipez, United States Circuit Judge for
the First Circuit, sitting by designation.
*

App. 1

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 2 of 30

2

USSEC V. FENG
SUMMARY **
Securities & Exchange Commission

The panel affirmed the district court’s summary
judgment in favor of the U.S. Securities and Exchange
Commission (“SEC”) in its civil complaint filed against Hui
Feng and his law firm, alleging securities fraud.
The U.S. Immigrant Investor Program, also known as the
EB-5 program, provides legal permanent residency in the
United States to foreign nationals who invest in U.S.-based
projects. Multiple foreign investors may pool their money
in the same enterprise, and these pooled investments are
made through “regional centers” which are regulated by the
U.S. Citizenship and Immigration Services.
Feng legally represented clients through the EB-5
process, and entered into marketing agreements with
regional centers. The basis of the agreements between the
regional centers and Feng’s investors were known as private
placement memoranda (“PPMs”).
The panel agreed with the district court that the EB-5
investments in this case constituted “securities” in the form
of investment contracts. The panel rejected Feng’s argument
that the transactions were not “securities” because his clients
did not expect profits from their investments. Specifically,
the panel held that the PPMs’ identification of the
investments as securities, the form of the investment entity
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
**

App. 2

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 3 of 30

USSEC V. FENG

3

as a limited partnership, and the promise of a fixed rate of
return all indicated that the EB-5 transactions were
securities. The panel rejected Feng’s contention that the
administrative fees upended the expectation of profits. The
panel also rejected Feng’s assertion that his clients lacked an
expectation of profit because they were motivated to
participate in the EB-5 program by the promise of visas, not
by profit.
Concerning the cause of action that Feng failed to
register as a broker in violation of Section 15(a) of the
Securities and Exchange Act of 1934, the panel agreed with
the district court’s conclusion that Feng was acting as a
broker and violated the registration requirement. The panel
held that the district court properly made its broker
determination by utilizing the totality-of-the-circumstances
approach by relying on the so-called Hansen factors. The
panel rejected Feng’s arguments that the broker registration
requirement should not apply to his circumstances.
The panel affirmed the district court’s finding that Feng
engaged in securities fraud in violation of Section 17(a) of
the Securities Act of 1933 and Section 10(b) of the Securities
Exchange Act of 1934 based on two theories of fraud
liability: material omissions, and schemes to defraud.
Concerning material omissions, the panel held that where
Feng worked as both a broker and an immigration attorney,
he had fiduciary duties to his clients, including the obligation
to disclose conflicts of interest. Here, there was a risk that
Feng’s judgment would be swayed by the promise of a
commission from the regional center, and this presented a
conflict with Feng’s representation of a client, which he
failed to disclose to his clients, and this failure was material.
Concerning schemes to defraud, the panel affirmed the
district court’s findings that Feng defrauded the regional

App. 3

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 4 of 30

4

USSEC V. FENG

centers that refused to pay commissions to U.S.-based
attorneys not registered as brokers, and defrauded clients
who sought a reduction in their administrative fees.
Finally, the panel held that the district court did not abuse
its discretion in entering a disgorgement order. The district
court calculated that Feng received $1.268 million for
commissions in connection with the EB-5 program, and
ordered disgorgement of the entire amount.
COUNSEL
Andrew B. Holmes (argued) and Matthew D. Taylor,
Holmes Taylor Scott & Jones LLP, Los Angeles, California,
for Defendant-Appellant Law Offices of Feng & Associates.
Hui Feng (argued), Law Offices of Feng & Associates,
Flushing, New York, for Defendant-Appellant Hui Feng.
Kerry J. Dingle (argued), Senior Counsel; Jeffery A. Berger,
Senior Litigation Counsel; Michael A. Conley, Solicitor;
Robert B. Stebbins, General Counsel; Securities &
Exchange Commission, Washington, D.C.; for PlaintiffAppellee.

App. 4

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 5 of 30

USSEC V. FENG

5

OPINION
LIPEZ, Circuit Judge:
This appeal requires us to decide whether certain
investments made by participants in the U.S. Immigrant
Investor Program are “securities” subject to regulation by the
Securities and Exchange Commission (“SEC”) and, if so,
whether appellant Hui Feng was a securities “broker”
required to register with the SEC and whether he committed
securities fraud in connection with the transactions. 1 The
district court granted summary judgment for the SEC. We
affirm.
I.
A. The EB-5 Program
The U.S. Immigrant Investor Program, colloquially
referred to as the EB-5 program, provides legal permanent
residency in the United States to foreign nationals who
invest in U.S.-based projects.
See 8 U.S.C.
2
§ 1153(b)(5)(A). Generally, qualified immigrants may gain
U.S. visas through direct investment of at least $1 million in
a new commercial enterprise that creates at least ten fulltime jobs for U.S. workers. Id. § 1153(b)(5)(A), (C).
Investment in a business in a “targeted employment area”
Both Hui Feng and his law firm, the Law Offices of Feng &
Associates P.C., are appellants in this matter. The parties’ arguments do
not distinguish between the two, and so, as a matter of convenience, we
refer to the appellants collectively as “Feng.”
1

By statute, the Immigrant Investor Program is the fifth preference
in the employment-based visa category, which gave rise to the nickname
“EB-5.” See 8 U.S.C. § 1153(b)(5)(A).
2

App. 5

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 6 of 30

6

USSEC V. FENG

lowers the required capital investment amount to $500,000.
Id. § 1153(b)(5)(C)(i), (ii).
Multiple foreign investors may pool their money in the
same enterprise, provided that each invests the required
amount and “each individual investment results in the
creation of at least ten full-time positions.” 8 C.F.R.
§ 204.6(g). Pooled investments are made through “regional
centers,” which are regulated by the U.S. Citizenship and
Immigration Services (“USCIS”). The regional centers offer
specific projects to investors and manage the pooled
investments. See id. § 204.6(e), (m).
A foreign national investing in an enterprise must file an
I-526 application with the USCIS to prove that the
investment will satisfy EB-5 program requirements. Id.
§ 204.6(a), (j)(2). Approval results in conditional permanent
resident status. Two years later, the investor may remove
the conditions on lawful permanent resident status by filing
an I-829 petition, demonstrating that the investment satisfied
the EB-5 requirements and created, or will create within a
reasonable period, ten qualifying jobs. Id. § 216.6.
B. Factual Background
Feng and the SEC largely agree on the facts. To the
extent that they have differing views of the record, we draw
all justifiable inferences in the light most favorable to Feng.
Blankenhorn v. City of Orange, 485 F.3d 463, 470 (9th Cir.
2007).
Feng conducts an immigration law practice in New York
City. Between 2010 and 2016, he led approximately
150 clients through the EB-5 process, substantially all of
whom were Chinese nationals who did not speak English.
Feng estimated that 80 percent of his clients found him

App. 6

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 7 of 30

USSEC V. FENG

7

through his website, which posted comparisons and
recommendations of available EB-5 projects. Feng holds a
law degree from Columbia University and an MBA from the
Tuck School of Business at Dartmouth, and he touted his
skill at investigating and determining the most reliable
investment opportunities.
Feng charged his clients a $10,000 to $15,000 upfront
fee. His services included serving as a liaison between
clients and regional centers, explaining the English-language
offering materials to his clients, negotiating with regional
centers regarding administrative fees charged to the clients
by the centers, and compiling and submitting his clients’
signed offering documents to regional centers. On three
occasions, investors wired funds directly to Feng, who
transferred the funds to the regional centers.
Feng also entered into marketing agreements with
regional centers. Through these agreements, he reserved a
number of the limited investor “spots” in certain EB-5
projects, which he then promoted on his website and tried to
fill within a set time period. If one of Feng’s clients made
the required capital contribution to one of these regional
centers, and if the USCIS approved the investor’s I-526
petition, the regional center agreed to pay Feng commissions
of $15,000 to $70,000. Although hundreds of regional
centers participate in the EB-5 program, Feng procured
investors only for ten centers, all of which agreed to pay
commissions. Feng did not disclose to his clients the
commissions he received from the regional centers unless
they specifically asked about them. 3
When the SEC’s investigation was pending, Feng revised his
retainer agreement to state that regional centers may pay fees to an
3

App. 7

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 8 of 30

8

USSEC V. FENG

Payment of a commission is an EB-5 industry practice,
but many regional centers refuse to pay a commission to a
U.S.-based attorney who is not registered as a broker, to
avoid causing or aiding and abetting a violation of the broker
registration requirement in Section 15(a) of the Securities
Exchange Act of 1934. See 15 U.S.C. § 78o(a). Several
regional centers offer a discount or rebate of a portion of the
administrative fee charged to the investor if there is no
referral commission for the attorney. Feng chose neither to
register as a broker, nor to forego commissions.
When told by some regional centers that they could only
pay commissions to overseas recruiters, Feng responded that
he had referral partners in China who were finding investors.
He entered into marketing agreements in which he promised
to relay the commissions to those individuals. He also
arranged agreements that were directly between the regional
centers and the individuals. The referral partners included
Feng’s wife, mother, and mother-in-law. Feng described
these individuals in his deposition testimony as his
“nominees,” whose role was to be “just a surrogate to receive
the money.” They did not do the work of recruiting
investors—Feng did that himself. After the regional centers
paid commissions to the individuals, they transferred the
funds to Feng. Feng asserts that the regional centers only
asked for a foreign contact to pay and did not “care” who it
was.
In 2014, Feng also created Atlantic Business Consulting
Limited (“ABCL”), based in Hong Kong. According to
Feng, this decision was “driven in part by regional centers
informing me they needed an overseas entity to pay.” ABCL
overseas company owned by Feng upon completion of the client’s visa
approval.

App. 8

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 9 of 30

USSEC V. FENG

9

entered into marketing agreements with regional centers, and
its only source of revenue was EB-5 commissions. Feng did
not inform the regional centers that he solicited and referred
ABCL’s investors himself. All of Feng’s employees worked
both for his law office and for ABCL. Feng’s mother,
Xiuyuan Tan, signed agreements between ABCL and
regional centers as ABCL’s “President,” but Feng admitted
she played no role in ABCL. Feng also did not inform the
regional centers that he was ABCL’s beneficial owner, with
sole control of ABCL’s bank account. Representatives from
the regional centers testified that they would have ceased
their marketing agreements if they had known about Feng’s
relationship with the individual referral agents and with
ABCL.
In total, regional centers paid Feng and his overseas
entities $1.268 million in commissions for investments made
by Feng’s clients. At the time of the district court judgment,
these entities were contractually entitled to an additional
$3.45 million in commissions, pending the approval of his
clients’ I-526 petitions.
The basis of the agreements between the regional centers
and Feng’s investors was set forth in the regional centers’
offering materials, also known as private placement
memoranda (“PPMs”). Many of the PPMs referred to the
investments as “securities” and asserted that the investments
were compliant with U.S. securities laws. The regional
centers structured the investments as limited partnerships, in
which the investors became limited partners and the regional
center was the general partner. The regional centers
promised investors a fixed, annual return on investment,
which ranged across projects from 0.5 to 5 percent of the
capital contribution, and investors received Schedule K-1 tax
forms to report their investment income from the

App. 9

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 10 of 30

10

USSEC V. FENG

partnership. The partnerships all made construction loans or
otherwise financed a specified construction project. At the
end of the investment term, typically five to six years, the
regional centers promised the investors a return of their
capital contribution, subject to market risks.
The PPMs required that investors pay an administrative
fee, which ranged across projects from $30,000 to $50,000,
in addition to the capital contribution of $1 million or
$500,000.
The PPMs expressly stated that these
administrative fees were for operating and marketing costs,
were not part of the capital contribution, and did not earn
interest.
Approximately 20 percent of Feng’s clients asked him to
seek a reduced administrative fee from the regional centers.
In those instances, Feng negotiated with regional centers and
facilitated contracts between those regional centers and his
clients for a rebate of a portion of the administrative fee.
Feng did not disclose to these clients, however, that the
administrative fees helped to fund his commissions, nor that
the regional centers offset the clients’ administrative fee
rebate with a reduction in the commissions to which he was
contractually entitled. Indeed, Feng asked the regional
centers not to inform the clients about either fact. Feng
explained in his deposition that he wanted to create the
appearance to his clients that he was advocating on their
behalf with the regional center and also to “keep as much of
the marketing fee as possible”—that is, his commission—
and to avoid further “haggl[ing]” with clients who might ask
Feng to rebate more of the commission. 4
For example, one client testified that Feng sent him a check for
$15,000, which Feng explained as a return of charges from the regional
4

App. 10

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 11 of 30

USSEC V. FENG

11

C. Procedural Background
The SEC filed a civil complaint against Feng and his law
firm on December 7, 2015. The first and second causes of
action allege fraud under Section 17(a) of the Securities Act
of 1933, 15 U.S.C. § 77q(a), and Section 10(b) of the
Securities Exchange Act of 1934, 15 U.S.C. § 78j(b) (“the
Exchange Act”), respectively. The third cause of action
alleges failure to register as a broker-dealer under Section
15(a) of the Exchange Act, 15 U.S.C. § 78o.
The defendants filed a motion for judgment on the
pleadings, which the district court denied in August 2016.
The parties subsequently filed cross-motions for summary
judgment. Feng argued that the EB-5 investments were not
“securities” because the investors had no expectation of
profit—only of obtaining a green card. The SEC argued that
the undisputed evidence showed that Feng acted as a
“broker” of “securities” as a matter of law. The district court
found no genuine dispute of material fact and granted
summary judgment for the SEC on all three causes of action.
In this appeal, Feng argues that the transactions were not
“securities,” and so the district court erred by denying his
motion for summary judgment and granting the SEC’s
motion.
We review the district court’s decision on cross-motions
for summary judgment de novo. Avery v. First Resolution
Mgmt. Corp., 568 F.3d 1018, 1021 (9th Cir. 2009).
Summary judgment is appropriate when there is no genuine
dispute of material fact and the moving party is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a). We
center without disclosing that Feng had received a $70,000 commission
on the client’s $1 million investment.

App. 11

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 12 of 30

12

USSEC V. FENG

consider cross-motions “separately, giving the nonmoving
party in each instance the benefit of all reasonable
inferences.” Zabriskie v. Fed. Nat’l Mortg. Ass’n, 912 F.3d
1192, 1196 (9th Cir. 2019) (quoting ACLU of Nev. v. City of
Las Vegas, 466 F.3d 784, 790–91 (9th Cir. 2006)).
II.
Feng contends that the district court erred in its threshold
determination that the EB-5 investments at issue were
“securities.” Because this finding is essential to all the
causes of action, we begin by considering whether the
district court properly made that determination as a matter of
law.
The district court found that the EB-5 investments were
securities because they were made through investment
contracts between the regional centers and the investors.
Section 3(a)(10) of the Securities Act defines the term
“security” broadly, enumerating a long list of financial
instruments, including “any . . . investment contract.”
15 U.S.C. § 78c(a)(10). Although the Securities Act does
not define the term “investment contract,” the parties agree
that the applicable test, set forth in SEC v. W. J. Howey Co.,
requires “a contract, transaction or scheme whereby a person
invests his money in a common enterprise and is led to
expect profits solely from the efforts of the promoter or a
third party.” 328 U.S. 293, 298–99 (1946). Courts applying
Howey “conduct an objective inquiry into the character of
the instrument or transaction offered based on what the
purchasers were ‘led to expect,’” including an analysis of the
promotional materials associated with the transaction.
Warfield v. Alaniz, 569 F.3d 1015, 1021 (9th Cir. 2009)
(quoting Howey, 328 U.S. at 298–99).

App. 12

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 13 of 30

USSEC V. FENG

13

It is undisputed that Feng’s clients invested money in a
common enterprise managed by a third party. Feng argues
that the transactions nonetheless were not “securities”
because the clients did not expect profits from their
investments. He asserts that his clients would have
recognized that the modest fixed return they were due from
the regional centers would not exceed the significant
administrative fees that they paid. He further maintains that
the lack of expected profit was not a concern for his clients
because their motivation for making an EB-5 investment was
to obtain U.S. visas. We find Feng’s characterization of the
EB-5 investments unpersuasive.
A. The PPMs
The regional centers promoted and described the EB-5
investments in the PPMs. The PPMs repeatedly referred to
the investments as “securities” and explained that the
offerings were made pursuant to U.S. securities laws.
Although “the name given to an instrument is not
dispositive,” “most instruments bearing th[e] traditional
titles [associated with securities] are likely to be covered by
the statutes.” United Hous. Found., Inc. v. Forman, 421 U.S.
837, 850 (1975). Further, “the use of a traditional name such
as ‘stocks’ or ‘bonds’ [may] lead a purchaser justifiably to
assume that the federal securities laws apply.” Id. That
inference inevitably would be drawn “when the underlying
transaction embodies some of the significant characteristics
typically associated with the named instrument.” Id. at 851.
Such characteristics are evident and undisputed here.
The EB-5 transactions were structured as investments in
limited partnerships, with the promise of a fixed annual
return on the investment, ranging from .5 to 5 percent.
Investments in limited partnerships generally constitute
investment contracts, see SEC v. Murphy, 626 F.2d 633, 640

App. 13

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 14 of 30

14

USSEC V. FENG

(9th Cir. 1980), and a return based on a fixed rate falls within
the broad definition of “profits,” SEC v. Edwards, 540 U.S.
389, 394 (2004); see also id. at 396 (“[T]he commonsense
understanding of ‘profits’ in the Howey test [is] simply
‘financial returns on . . . investments.’” (quoting Forman,
421 U.S. at 853)); Warfield, 569 F.3d at 1022 (holding that
the investors had an expectation of profit where the
promotional materials emphasized “long-term income
production potential”). The Supreme Court has reasoned
that the promise of a fixed rate of return should be viewed as
triggering an expectation of profits because the securities
laws are intended “to regulate all of the ‘countless and
variable schemes devised by those who seek the use of the
money of others on the promise of profits.’” Edwards,
540 U.S. at 396 (quoting Howey, 328 U.S. at 299). The
Court was wary that “unscrupulous marketers of
investments” might otherwise “evade the securities laws by
picking a rate of return to promise.” Id. at 394–95.
The PPMs’ identification of the investments as
securities, the form of the investment entity as a limited
partnership, and the promise of a fixed rate of return all
indicate that the EB-5 transactions were securities.
B. The Administrative Fees
Feng insists, however, that the promised return is
effectively nullified by the administrative fees. When an
investor’s administrative fee and capital contribution are
considered together, Feng contends, the investor could not
have expected to make any profit. The record, however,
does not support treating the administrative fee as part of the
investment. The PPMs expressly distinguish those two
categories of funds, describing the investment as the “capital
contribution,” which would be “put at risk,” or utilized by,
the regional center. By contrast, the PPMs explain that the

App. 14

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 15 of 30

USSEC V. FENG

15

administrative fee would be used to defray marketing and
operating expenses.
Importantly, the separation between the capital
contribution and the administrative fee is necessary to satisfy
the EB-5 regulatory requirements. The USCIS requires that
a qualifying EB-5 investment place capital “at risk for the
purpose of generating a return on the capital placed at risk.”
8 C.F.R. § 204.6(j)(2). In other words, to be eligible for the
EB-5 program, the offering’s terms must include a possible
return on the capital contribution. Hence, even if Feng is
correct that, as a mathematical proposition, combining the
capital contribution and administrative fee would eliminate
a return on the investment, the PPMs make clear that the two
categories of funds are to be viewed separately.
Feng himself confirmed these separate identities when
the USCIS questioned whether one of his clients met the EB5 requirements. In a letter to the USCIS, Feng stated that the
client’s capital contribution was separate from the
administrative fee and was therefore put “at risk for the
purpose of generating a return.” The client, Feng asserted,
“made an at-risk capital investment of $500,000 . . . . No
portion of an investor’s contribution has been or will be
applied towards legal service fees or administrative fee[s],
marketing costs or interest payment of [the regional center],
which are paid from the separate $50,000 administrative
fee.”
Feng thus attempts to characterize the administrative
fees in two different ways to suit his own purposes. On the
one hand, he explained that the administrative fee should be
excluded from the “investment” to establish that the
investment satisfies the EB-5 requirement of a possible
return. On the other hand, he seeks to include the
administrative fee in the securities analysis to show there is

App. 15

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 16 of 30

16

USSEC V. FENG

no possibility of generating the return as required by the
Howey test. That inconsistent approach is plainly contrary
to Congress’s intent in enacting the securities laws, as it
would empower “unscrupulous marketers of investments” to
structure deals to evade the designation of a security.
Edwards, 540 U.S. at 394. Feng’s argument that the
administrative fee upends the expectation of profits has no
merit.
C. Motivation
We likewise find unsupportable Feng’s assertion that—
whatever the form of the investment and the rate of return—
his clients nonetheless lacked an expectation of profit
because they were motivated to participate in the EB-5
program by the promise of visas, not by profit. See Warfield,
569 F.3d at 1021 (holding that the focus of Howey is the
“objective inquiry” into “what the purchasers were offered
or promised,” although the investors’ subjective intent “may
have some bearing on the issue of whether they entered into
investment contracts”). We do not doubt that the investors’
primary reason to participate in the EB-5 program was to
gain U.S. visas. But Feng oversimplifies his clients’
motivations.
An EB-5 investor’s interest in a visa is inextricably tied
to the financial success of the regional center’s project. The
EB-5 program by design links the success of the investment
to the investor’s success in obtaining a visa. An EB-5
applicant must prove to the USCIS that an investment in fact
led to the creation of at least ten full-time jobs. 8 U.S.C.
§ 1153(b)(5)(A); 8 C.F.R. §§ 204.6, 216.6. Understanding
the importance of a successful investment, Feng marketed
his ability to evaluate the multitude of regional centers and
recommend projects that were most likely to be sustained
long enough to create the requisite jobs to qualify the

App. 16

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 17 of 30

USSEC V. FENG

17

investor for the EB-5 visa. The record also contains
testimony from some of Feng’s client-investors who said
that the likelihood of the regional center returning their
capital contribution was important to them or that they
sought EB-5 projects with higher rates of return. Feng’s
argument thus relies on a false dichotomy between the visa
and the success of the investment. 5
We therefore agree with the district court that the
investments in this case constitute securities in the form of
investment contracts.
III.
Having resolved the threshold securities issue, we next
consider Feng’s challenges to the grant of summary
judgment for the SEC on each of the three causes of action
brought against him.
A. Failure to Register as a Broker
Section 15(a)(1) of the Exchange Act makes it unlawful
for a “broker . . . to induce or attempt to induce the purchase
or sale of[] any security” without registering with the SEC.
15 U.S.C. § 78o(a)(1). The statute defines “broker” as “any

In a recent memorandum disposition, we rejected the argument that
EB-5 investments do not constitute securities where the investors’
interest was to obtain visas rather than profits. SEC v. Liu, 754 F. App’x
505, 507 (9th Cir. 2018). The facts in Liu mirror those in this case, with
a series of $500,000 EB-5 investments and accompanying $45,000
administrative fees. Id. The court held that the promise of an annual
return of only 0.25 percent was enough to establish an expectation of
profit, “[e]ven if it was not [the investors’] primary motivation.” Id.
5

App. 17

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 18 of 30

18

USSEC V. FENG

person engaged in the business of effecting transactions in
securities for the account of others.” Id. § 78c(a)(4)(A).
The district court concluded that the uncontroverted
evidence establishes that Feng was acting as a broker and
violated the registration requirement. We agree.
1. The Broker Determination
In making its broker determination, the district court
utilized the totality-of-the-circumstances approach that other
courts have used under Section 15(a)(1), relying on a set of
factors first set forth in SEC v. Hansen, No. 83 Civ. 3692,
1984 WL 2413, at *10 (S.D.N.Y. Apr. 6, 1984). See SEC v.
Collyard, 861 F.3d 760, 766 (8th Cir. 2017); SEC v. George,
426 F.3d 786, 797 (6th Cir. 2005); see also SEC v. Imperiali,
Inc., 594 F. App’x 957, 961 (11th Cir. 2014) (per curiam)
(quoting George, 426 F.3d at 797). Courts emphasize that
the so-called Hansen factors are “nonexclusive.” Collyard,
861 F.3d at 766.
In performing its inquiry, the district court considered
whether Feng:
(1) is an employee of the issuer of the
security;
(2) received transaction-based income such
as commissions rather than a salary;
(3) sells or sold securities from other issuers;
(4) was involved in negotiations between
issuers and investors;
(5) advertis[ed] for clients;

App. 18

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 19 of 30

USSEC V. FENG

19

(6) gave advice or made valuations regarding
the investment;
(7) was an active finder of investors; and
(8) regularly
transactions.

participates

in

securities

SEC v. Feng, No. 15-09420, 2017 WL 6551107, at *7–8
(C.D. Cal. Aug. 10, 2017) (footnote omitted). 6 The district
court found that, although Feng was not an employee of the
issuer, his conduct satisfied all the other factors. Id. at *8.
He received commissions from regional centers, sought
investors and clients through his website and other online
forums, negotiated with regional centers about the terms of
the projects, and gave advice about EB-5 projects’ likelihood
of success.
Although Feng does not contest the facts underlying
these conclusions, he objects to the factor-based analysis
generally, arguing that the factors are so vague that they
erroneously encompass individuals who are merely
providing legal advice in the EB-5 context. 7 To the contrary,
The district court’s eight factors essentially tracked the
considerations identified in Hansen. Feng, 2017 WL 6551107, at *7–8;
Hansen, 1984 WL 2413, at *10.
6

7
Feng also argues that the district court’s factors omit the
requirement that a broker must have authority or control over the
accounts of others. But the caselaw cited by Feng does not impose such
a requirement as a prerequisite for finding that someone is a broker. See
SEC v. Kramer, 778 F. Supp. 2d 1320, 1339–40 (M.D. Fla. 2011)
(discussing authority over an account as one of several factors); SEC v.
M & A West, Inc., No. C-01-3376 VRW, 2005 WL 1514101, at *9 (N.D.
Cal. June 20, 2005) (same); cf. SEC v. Mapp, 240 F. Supp. 3d 569, 592

App. 19

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 20 of 30

20

USSEC V. FENG

the application of the Hansen factors reveals that much of
the work Feng performed for his clients, rather than being
traditional legal work, aligns with the indicia of broker
activity identified by those factors.
For example, Feng asserts that the factor “received
transaction-based income such as commissions rather than a
salary” is unclear and could improperly include an attorney’s
contingent fee. However, Feng charged his clients a
noncontingent, upfront fee. And it is undisputed that Feng
and his nominees received $1.268 million in commissions
from the regional centers—not his legal clients—for
recruiting investors to the regional centers’ EB-5 projects.
On these facts, the “commissions” factor does not threaten
to mislabel traditional legal services as broker activity.
Similarly, Feng suggests that “involve[ment] in
negotiations between issuers and investors” should not
include his legal work explaining to clients aspects of legal
compliance and regional center communications. Feng
ignores, however, the evidence that he communicated
extensively with the regional centers, posing numerous
questions about the terms of the projects and negotiating the
amount of the administrative fees.
In addition, Feng contends that the factor “gave advice
or made valuations regarding the investment” should not
include legal advice about the merits of the various EB-5
projects. He claims that he was advising his clients about
how to obtain legal permanent residency status, not about
(E.D. Tex. 2017) (discussing but not deciding whether control over the
account of others is an element or a nondispositive factor). Further,
assuming that control is a pertinent factor, it is present here in the
multiple instances in which client funds passed through Feng’s accounts.

App. 20

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 21 of 30

USSEC V. FENG

21

how to make money. The record, however, indicates that
Feng’s services included investment advice. He reviewed
and promoted certain EB-5 projects based on their likelihood
of success under the EB-5 requirements, with particular
attention to the projects’ likely ability to create the requisite
number of jobs over time to qualify the investor for an EB-5
visa, as well as the likelihood the projects could return the
investors’ capital contributions. This work goes beyond the
traditional work of a lawyer.
Finally, Feng suggests that the factor “active finder of
investors” improperly conflates seeking legal clients with
seeking investors. This argument, too, is meritless. Feng
sought a particular kind of client—one who would become
an investor with a regional center with which he had a
marketing agreement and a reserved investor slot. Feng’s
150 clients invested more than $65 million. In this EB-5
context, his legal clients and the regional center investors
were, in fact, one and the same.
2. Feng’s Additional Arguments
Feng goes beyond the Hansen analysis to argue more
generally that the broker registration requirement should not
apply to his circumstances. First, he asserts that the
requirement should apply only to individuals who trade
securities on an exchange and not to those involved in
transactions between private parties—deals commonly
referred to as “over-the-counter.” It is well established,
however, that “[t]he 1934 [Exchange] Act was intended
principally to protect investors against manipulation of stock
prices through regulation of transactions upon securities
exchanges and in over-the-counter markets.” Ernst & Ernst
v. Hochfelder, 425 U.S. 185, 195 (1976) (emphasis added)
(citing S. Rep. No. 792, at 1–5 (1934)). Although the
Exchange Act exempts brokers “whose business is

App. 21

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 22 of 30

22

USSEC V. FENG

exclusively intrastate and who do[] not make use of any
facility of a national securities exchange,” Feng’s business
was not “exclusively intrastate.” See 15 U.S.C. § 78o(a)(1).
Second, Feng argues that the broker registration
requirement is unnecessary in his circumstances because
registered-broker duties duplicate the fiduciary duties that
apply to the attorney-client relationship. Feng analogizes to
the registration exemption for lawyers under the Investment
Advisers Act of 1940, which excludes from the definition of
an investment adviser “any lawyer, accountant, engineer, or
teacher whose performance of such services is solely
incidental to the practice of his profession.” 15 U.S.C.
§ 80b-2(a)(11)(B). Feng asserts—without citation—that the
Investment Advisers Act exempts attorneys because of their
heightened fiduciary duty to clients, and he urges us to apply
“this rationale” to create an attorney exception to the broker
registration requirement in the Exchange Act.
This argument fails for multiple reasons. As we have
already explained, even if such an exemption existed, the
record belies any claim that Feng’s activities were “solely
incidental to the practice of [law].” Moreover, if an
attorney’s fiduciary duty were the rationale for the
exemption under the Investment Advisers Act, the incidental
nature of the investment-related work would seem irrelevant
because the fiduciary duty presumably would cover any
work on behalf of clients. Feng essentially asks us to
perform a legislative act by adding an exemption to one
statute on the basis of a different statute for which Congress
expressly provided an exemption. Self-evidently, we cannot
do that.
In a last-ditch attempt to justify his failure to register,
Feng argues that imposing the broker registration
requirement on U.S.-based attorneys would “force” them

App. 22

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 23 of 30

USSEC V. FENG

23

“not to help these people.” This argument poses a false
choice. Attorneys who provide only legal advice to clients
about the EB-5 program are not required to register.
Attorneys who act as brokers in the EB-5 context may
legally do so only if they register with the SEC.
3. Conclusion
Given the undisputed facts in the record, we agree with
the district court that Feng, as a matter of law, was “engaged
in the business of effecting transactions in securities for the
account of others” and thus was required to register with the
SEC as a broker. 15 U.S.C. §§ 78c(4)(A), 78o(a)(1). 8
B. The Fraud Determinations
Feng argues that the district court erroneously found that
he committed securities fraud in violation of Section 17 of
the Securities Act and Section 10(b) of the Exchange Act, as
implemented through Rule 10b-5. The district court’s
determinations were based on two theories of fraud liability:
material omissions and schemes to defraud. We review each
in turn.

Feng also appeals the denial of his motion for judgment on the
pleadings, arguing that the terms “security” and “broker” in Section
15(a) of the Exchange Act are unconstitutionally vague. A word is not
vague when it has a “settled legal meaning.” United States v. Williams,
553 U.S. 285, 306 (2008). Section 15(a) was enacted 80 years ago, and
it has been applied countless times by the courts. There was no error in
the district court’s denial of the motion for judgment on the pleadings.
8

App. 23

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 24 of 30

24

USSEC V. FENG
1. Material Omissions (Section 17(a)(2) and Rule
10b-5(b))

The antifraud provisions of the Securities Act, Section
17(a)(2), and the Exchange Act, Section 10(b), developed
through Rule 10b-5(b), “forbid making a material
misstatement or omission in connection with the offer or sale
of a security by means of interstate commerce.” SEC v. Dain
Rauscher, Inc., 254 F.3d 852, 856 (9th Cir. 2001). Under
these provisions, it is unlawful for any person, in the offer or
sale of securities, “to obtain money or property by means of
any untrue statement of a material fact or any omission to
state a material fact necessary in order to make the
statements made, in light of the circumstances under which
they were made, not misleading.” 15 U.S.C. § 77q(a)(2).
The text of Rule 10b-5 largely mirrors the text of Section
17(a). 9 Although there are differences in the state of mind
requirements for Rule 10b-5(b) and Section 17(a)(2), a
showing of intentional or knowing conduct satisfies both.
See Aaron v. SEC, 446 U.S. 680, 695–97 (1980) (holding
that scienter is an element of Section 10(b), Rule 10b-5, and
Section 17(a)(1), but not Section 17(a)(2) or (3)).
A fiduciary duty to disclose certain information renders
an omission of that information misleading. See United
States v. Laurienti, 611 F.3d 530, 541 (9th Cir. 2010). In
Laurienti, the court addressed a broker’s liability under Rule
10b-5(b) for failure to disclose commissions to his clients.
The court noted that, while the broker/client relationship
9
Section 17(a) of the Securities Act prohibits fraud in the sale of
securities. Rule 10b-5, adopted by the SEC pursuant to its authority
under Section 10(b) of the Exchange Act, incorporates the operative
language of Section 17(a) explicitly and also extends the prohibition to
fraud committed in the purchase of securities. See Ernst & Ernst,
425 U.S. at 212 n.32.

App. 24

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 25 of 30

USSEC V. FENG

25

does not itself impose a fiduciary duty, circumstances may
create “a relationship of trust and confidence.” Id. at 540.
Often, a broker has a fiduciary duty when he has
discretionary authority over a client’s account, “but we have
recognized that particular factual circumstances may serve
to create a fiduciary duty between a broker and his customer
even in the absence of a discretionary account.” Id. (quoting
United States v. Skelly, 442 F.3d 94, 98 (2d Cir. 2006)). The
court held that, however the duty arises, “if a broker and a
client have a trust relationship, . . . then the broker has an
obligation to disclose all facts material to that relationship.”
Id. at 541.
Here, as we have determined, Feng worked as both a
broker and an immigration attorney.
Indeed, Feng
emphasizes his role as an attorney and acknowledges that, as
such, he had fiduciary duties to his clients. Those duties
included the obligation to disclose conflicts of interest. See
N.Y. Rules of Prof’l Conduct (22 NYCRR § 1200.0) 1.4
(duty to communicate any information needed by the client
to give informed consent), 1.7 (duty to disclose a conflict),
1.8 (duty to disclose business relationships).
Feng’s argument that there is no conflict because his
clients were not harmed applies the wrong standard. The
conflict of interest rule addresses the risk of harm to clients,
asking whether a “reasonable lawyer would conclude . . .
there is a significant risk that the lawyer’s professional
judgment on behalf of a client will be adversely affected by
the lawyer’s own financial, business, property or other
personal interests.” N.Y. Rules of Prof’l Conduct 1.7(a). In
these transactions, there was a risk that Feng’s judgment
would be swayed by the promise of commissions—that, for
example, he would prefer a regional center that paid a higher
commission but had a slightly lower likelihood of success

App. 25

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 26 of 30

26

USSEC V. FENG

over a regional center that offered a lower commission but
had a better opportunity for the client.
Indeed, when Feng was asked in his deposition whether
the commission from the regional center and his
representation of a client presented a conflict, he
acknowledged that it did:
Yes. I see it as sort of like a conflict because
we’re in between, between regional center
and the client. I’m aware of getting legal fees
from the client, but also, even though we are
not issuer’s counsel, we are definitely not
regional center’s counsel. But regional
centers pay us after the 526 getting approved.
Even though we realize there’s such a
conflict, but our interest is first and foremost
with the clients.
His assertion that he shared his clients’ goal of obtaining a
green card does not eliminate the risk of the commission’s
influence on his professional judgment. Further, the rules
provide that only the client, fully informed of both the
conflict and the risks stemming from the conflict, may make
a judgment about whether to accept representation
notwithstanding the conflict. N.Y. Rules of Prof’l Conduct
1.4, 1.7.
“[E]ven in a trust relationship,” the duty is “to disclose
only material facts.” See Laurienti, 611 F.3d at 541.
Generally, an omission is material “if there is ‘a substantial
likelihood that the disclosure of the omitted fact would have
been viewed by the reasonable investor as having
significantly altered the “total mix” of information made
available.’” SEC v. Phan, 500 F.3d 895, 908 (9th Cir. 2007)
(quoting Basic Inc. v. Levinson, 485 U.S. 224, 231–32

App. 26

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 27 of 30

USSEC V. FENG

27

(1988)). Here, the record includes statements of individual
investors who said that if they had known about Feng’s
commissions, they would have attempted to negotiate their
administrative fees. Feng also testified that he concealed his
commissions to avoid anticipated client requests for rebates.
He said that he thought disclosure of his commissions would
encourage the clients to ask for more reductions in their
administrative fees, and he did not want to open the door to
negotiations that would lower his clients’ costs but decrease
his payout. We thus agree with the district court that Feng’s
failure to disclose his conflict of interest was material. See
TSC Indus., Inc. v. Northway, Inc., 426 U.S. 438, 450 (1976)
(holding that materiality may be resolved at summary
judgment “if the established omissions are so obviously
important to an investor[] that reasonable minds cannot
differ on the question of materiality” (internal quotation
marks omitted)).
Finally, Feng’s testimony establishes intent to deceive.
Feng stated that he did not want to tell clients about his
commissions from the regional centers because it would be
costly. Feng’s brief similarly describes his choice not to
disclose as a “business decision.”
2. Schemes to Defraud (Section 17(a)(1) and (3) and
Rule 10b-5(a) and (c))
The securities fraud provisions also prohibit any person,
in the offer or sale of securities, “to employ any device,
scheme, or artifice to defraud” or “to engage in any
transaction, practice, or course of business which operates or
would operate as a fraud or deceit upon the purchaser.”
15 U.S.C. § 77q(a)(1), (3); see also 17 C.F.R. § 240.10b5(a), (c). The state of mind requirement varies among these
provisions, but a showing of intentional or knowing conduct
clears all thresholds. See Aaron, 446 U.S. at 695–97.

App. 27

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 28 of 30

28

USSEC V. FENG

The district court found that Feng defrauded the regional
centers that refused to pay commissions to U.S.-based
attorneys not registered as brokers. Feng evaded this
restriction by informing the regional centers that he was
affiliated with foreign referral agents and companies,
holding himself out to the regional centers as a middleman.
Feng furthered this scheme by setting up ABCL in China to
receive commission payments, while maintaining control of
both ABCL’s bank account and operations. Feng performed
the recruitment services himself and received the
commissions that regional centers believed they were paying
to the affiliated recruiters. Feng recruited his mother to sign
documents as ABCL’s president, even though she had no
actual role in the company. Representatives from the
regional centers testified they would have ceased this
arrangement if they knew Feng’s relationship with either the
agents or ABCL.
The district court also found that Feng engaged in a
scheme to defraud clients who sought a reduction in their
administrative fees. Generally, as noted, regional centers
were willing to rebate a portion of the administrative fee that
they charged investors if the regional center could also
reduce the commission it paid for the recruitment of that
investor. When a client asked Feng to negotiate with the
regional center to reduce his administrative fee, Feng
arranged with the regional center to lower the administrative
fee by reducing the commission. He took measures to
conceal this arrangement from his clients, however, because
he wanted to “keep as much of the marketing fee as possible”
and avoid further negotiation with clients, while also
creating the appearance to his clients that he was prevailing
on their behalf with the regional centers. Feng asked the
regional centers to rebate a portion of the administrative fee

App. 28

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 29 of 30

USSEC V. FENG

29

but not to disclose that the funds were reallocated from a
commission.
Feng challenges on two grounds the district court’s
finding that his conduct violated the Securities and Exchange
Acts. First, Feng asserts that the scheme-to-defraud
allegations under Rule 10b-5(a) and (c) improperly duplicate
the Rule 10b-5(b) material omission claim. We see no
duplication. The district court addressed the fraud against
the regional centers only as a scheme to defraud, not as a
material omission. With regard to the fraud against the
clients, the district court focused on Feng’s failure to
disclose his conflict of interest to his clients as material
omissions and, separately, on his efforts to conceal the
source of the rebates as a scheme to defraud.
Second, Feng argues that his establishment of overseas
entities and occasional arrangement of rebates for clients
were not unlawful. But, deceptive conduct that is not
“inherently unlawful” may form the basis of a scheme to
defraud. SEC v. Wey, 246 F. Supp. 3d 894, 918 (S.D.N.Y.
2017). In addition, Feng’s attempt to analogize the rebate
scheme to a store proprietor giving a customer a discount is
inapt. The fraudulent conduct was his scheme to make the
rebate appear to come from his advocacy on behalf of the
client, while concealing the relationship between the
reduction and his undisclosed commission.
We accordingly affirm the district court’s finding that
Feng engaged in securities fraud in violation of Section 17(a)
and Section 10(b).
IV.
Finally, Feng challenges the district court’s
disgorgement order. The district court calculated that Feng

App. 29

Case: 17-56522, 08/23/2019, ID: 11407828, DktEntry: 64-1, Page 30 of 30

30

USSEC V. FENG

received $1.268 million for commissions in connection with
the EB-5 program and ordered disgorgement of the entire
amount. Feng contests the disgorgement of fees paid to his
overseas entities, suggesting that some of the fees were used
to cover expenses. He does not dispute that he controlled
those overseas entities.
We review the court’s imposition of disgorgement for
abuse of discretion. SEC v. JT Wallenbrock & Assocs.,
440 F.3d 1109, 1113 (9th Cir. 2006). A disgorgement
calculation “should include ‘all gains flowing from the
illegal activities,’” id. at 1114 (quoting SEC v. Cross Fin.
Servs., 908 F. Supp. 718, 734 (C.D. Cal. 1995), and “requires
only a ‘reasonable approximation of profits causally
connected to the violation,’” id. at 1113–14 (quoting SEC v.
First Pac. Bancorp, 142 F.3d 1186, 1192 n. 6 (9th Cir.
1998)).
Feng used his overseas entities—ABCL and his other
nominees—to advance his scheme to defraud the regional
centers. The money paid by regional centers to Feng’s
overseas entities is therefore exactly the focus of the fraud
against the regional centers, such that the district court could
find a “causal[] connect[ion]” through which the funds
“flow[] from the illegal activities.” Id. at 1114. Feng should
not have been collecting these commissions in the first place,
and it would be unjust to permit him to retain some of the illgotten funds to cover his expenses. See id. (“[I]t would be
unjust to permit the defendants to offset against the investor
dollars they received the expenses of running the very
business they created to defraud those investors into giving
the defendants the money in the first place.”). We
accordingly find no abuse of discretion in the disgorgement
order.
AFFIRMED.

App. 30

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 1 of 25 Page ID #:12677

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12
13
14
15
16

SECURITIES AND EXCHANGE
COMMISSION,

AMENDED ORDER RE:
MOTIONS FOR SUMMARY
JUDGMENT

Plaintiff,

vs.

HUI FENG and LAW OFFICES OF
FENG & ASSOCIATES P.C.,
Defendants.

17
18

Case No. 15-cv-09420

The matters before the Court are: (1) Plaintiff Securities and Exchange

19

Commission’s (“SEC’s”) Motion For Summary Judgment; and (2) Defendants

20

Hui Feng’s (“Feng’s”) and Law Offices of Feng & Associates P.C.’s (“Law

21

Office’s”) (collectively, “Defendants’”) Motion For Summary Judgment. (Dkt.

22

Nos. 61, 66.)

23
24

I.

BACKGROUND

The EB-5 Immigrant Investor Program was created by Congress in 1992 to

25

stimulate the U.S. economy with capital investment from foreign investors.

26

Foreign investors who invest $500,000 or $1,000,000 capital in a domestic

27

commercial enterprise may petition the United States Citizenship and Immigration

28

Services (“USCIS”) (the “I-526 Petition”) and receive conditional permanent
1
App. 31

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 2 of 25 Page ID #:12678

1

residency status. Many EB-5 investments are administered by entities called

2

“regional centers.”

3

This securities action arises from Defendants’ (who are immigration

4

attorneys) receipt of undisclosed commissions from regional centers in connection

5

with Defendants’ clients’ EB-5 Immigrant Investor Program (the “EB-5

6

Program”) investments. The SEC’s Complaint assert the following three causes of

7

action under the Securities Exchange Act (“the Act”): (1) Fraud in the Offer or

8

Sale of Securities, 15 U.S.C. § 77q(a); (2) Fraud in Connection with the Purchase

9

or Sale of Securities, 15 U.S.C. § 78j(b); and (3) Failure to Register as a Broker-

10
11
12
13
14
15

Dealer, 15 U.S.C. § 78o(b).
The SEC’s first cause of action for Fraud in the Offer or Sale of Securities
alleges Defendants violated Section 17(a) of the Act, which provides:
It shall be unlawful for any person in the offer or sale of any
securities (including security-based swaps) or any security-based
swap agreement (as defined in section 78c(a)(78) of this title) by the
use of any means or instruments of transportation or communication
in interstate commerce or by use of the mails, directly or indirectly

16

(1) to employ any device, scheme, or artifice to defraud, or

17

(2) to obtain money or property by means of any untrue statement
of a material fact or any omission to state a material fact
necessary in order to make the statements made, in light of the
circumstances under which they were made, not misleading; or

18
19
20
21
22
23

(3) to engage in any transaction, practice, or course of business
which operates or would operate as a fraud or deceit upon the
purchaser.
15 U.S.C. § 77q(a).
The SEC’s second cause of action for Fraud in Connection with the

24

Purchase or Sale of Securities alleges Defendants violated Section 10(b) of the Act

25

and Rule 10b-5. Section 10(b) provides:

26
27
28

It shall be unlawful for any person, directly or indirectly, by the use
of any means or instrumentality of interstate commerce or of the
mails, or of any facility of any national securities exchange . . . [t]o
use or employ, in connection with the purchase or sale of any security
registered on a national securities exchange or any security not so
2
App. 32

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 3 of 25 Page ID #:12679

1
2

registered, or any securities-based swap agreement any manipulative
or deceptive device or contrivance in contravention of such rules and
regulations as the Commission may prescribe as necessary or
appropriate in the public interest or for the protection of investors.”

3

15 U.S.C. § 78j(b). One of the rules promulgated under the Act is Rule 10b-5,

4

which provides: “It shall be unlawful for any person ... [t]o make any untrue

5

statement of a material fact or to omit to state a material fact necessary in order to

6

make the statements made, in the light of the circumstances under which they

7

were made, not misleading . . . in connection with the purchase or sale of any

8

security.” 17 C.F.R. § 240.10b-5.

9

The second and third causes of action for securities fraud allege: (1)

10

Defendants failed to disclose to clients that Defendants received commissions

11

from regional centers for referring Defendants’ clients to invest in a regional

12

center’s EB-5 offerings; and (2) Defendants falsely represented to regional centers

13

that foreign-based persons or a foreign-based entity were responsible for finding

14

EB-5 investors, when in reality Defendant Feng’s relatives or an entity controlled

15

by Feng received commissions for referring clients.

16
17
18
19
20
21
22
23
24
25
26
27
28

The SEC’s third cause of action for Failure to Register as a Broker-Dealer
alleged Defendants violated Section 15 of the Act, which provides:
(a) . . . It shall be unlawful for any broker or dealer which is either a
person other than a natural person or a natural person not associated
with a broker or dealer which is a person other than a natural person
(other than such a broker or dealer whose business is exclusively
intrastate and who does not make use of any facility of a national
securities exchange) to make use of the mails or any means or
instrumentality of interstate commerce to effect any transactions in,
or to induce or attempt to induce the purchase or sale of, any security
(other than an exempted security or commercial paper, bankers'
acceptances, or commercial bills) unless such broker or dealer is
registered in accordance with subsection (b) of this section. . . .
(b) . . . A broker or dealer may be registered by filing with the
Commission an application for registration in such form and
containing such information and documents concerning such broker
or dealer and any persons associated with such broker or dealer as the
Commission, by rule, may prescribe as necessary or appropriate in
the public interest or for the protection of investors.
15 U.S.C. § 78o. The third cause of action alleges Defendants failed to register as
3
App. 33

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 4 of 25 Page ID #:12680

1

brokers under Section 15 in connection with their EB-5 activities.
II.

2

STATEMENT OF LAW

On a motion for summary judgment, the Court must determine whether,

3
4

viewing the evidence in the light most favorable to the nonmoving party, there are

5

any genuine issues of material fact. Simo v. Union of Needletrades, Indus. &

6

Textile Employees, 322 F.3d 602, 609-10 (9th Cir. 2003); Fed. R. Civ. P. 56.

7

Summary judgment against a party is appropriate when the pleadings, depositions,

8

answers to interrogatories, and admissions on file, together with the affidavits, if

9

any, show that there is no genuine issue as to any material fact and that the

10

moving party is entitled to judgment as a matter of law. Fed. R. Civ. P. 56. An

11

issue is “genuine” only if there is a sufficient evidentiary basis on which a

12

reasonable jury could find for the non-moving party. Anderson v. Liberty Lobby,

13

Inc., 477 U.S. 242, 248 (1986). A factual dispute is “material” only if it might

14

affect the outcome of the suit under governing law. Id. at 248.
The evidence presented by the parties must be admissible. Fed. R. Civ. P.

15
16

56(e). In judging evidence at the summary judgment stage, the Court does not

17

make credibility determinations or weigh conflicting evidence. T.W. Elec. Serv.,

18

Inc. v. Pac. Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir. 1987). Rather,

19

“[t]he evidence of the nonmovant is to be believed, and all justifiable inferences

20

are to be drawn in [the nonmovant’s] favor.” Anderson, 477 U.S. at 255. But the

21

non-moving party must come forward with more than “the mere existence of a

22

scintilla of evidence.” Id. at 252. “Conclusory, speculative testimony in affidavits

23

and moving papers is insufficient to raise genuine issues of fact and defeat

24

summary judgment.” Soremekun v. Thrifty Payless, Inc., 509 F.3d 978, 984 (9th

25

Cir. 2007) (citations omitted).
III.

26
27
28

A.

DISCUSSION

Evidentiary Objections
The Court rules on the parties’ evidentiary objections as follows:
4
App. 34

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 5 of 25 Page ID #:12681

The SEC’s Request for Evidentiary Rulings On Specified Objections (Dkt.

1
2

No. 80): The SEC’s objection No. 18 is SUSTAINED as to ABCL maintaining

3

offices in China, and otherwise OVERRULED. The SEC’s remaining objections

4

are SUSTAINED.
Defendants’ Request for Evidentiary Ruling on Specified Objections (Dkt.

5
6

No. 75-3): Defendants’ objections are OVERRULED.
Defendants’ Request for Evidentiary Ruling on Specified Objections (Dkt.

7
8

No. 81-3): Defendants’ objections Nos. 3, 23, and 24 are SUSTAINED.

9

Defendants’ objection No. 28 is SUSTAINED as to Ekins Deposition page 41,

10

line 22 through page 42 line 4, and OVERRULED as to Ekins Deposition page 41,

11

lines 19 to 21. Defendants’ remaining objections are OVERRULED.1

12

B.

Defendants’ Requests for Judicial Notice

13

Defendants request the Court take judicial notice of various administrative

14

materials and news articles. (See Dkt. Nos. 67, 75-2, 81-1.) The Court may only

15

take judicial notice of the existence of the documents, but not the truth of the

16

contents therein. See Fed. R. Evid. 402; Lee v. City of Los Angeles, 250 F.3d 668,

17

690 (9th Cir. 2001). The Court finds the existence of the documents for which

18

Defendants seek judicial notice is not relevant, and therefore denies Defendants’

19

requests for judicial notice.

20

C.

Whether the EB-5 Investments Are “Securities” Under the Act
Defendants seek summary judgment as to all causes of action on the ground

21
22

the EB-5 investments are not “securities” covered by the Act. Defendants also

23

oppose the SEC’s summary judgment motion on the same basis.

24

Section 3(a)(10) of the Act defines “security” to include, among other

25

things, an “investment contract.” 15 U.S.C. § 78c(a)(10) (emphasis added).2

26

1

27
28

Consistent with the rulings on the objections, the Court did not consider evidence
for which an objection was sustained.
2
Specifically, “security” is defined under the Act as:
[A]ny note, stock, treasury stock, security future, security-based swap,
5
App. 35

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 6 of 25 Page ID #:12682

1

“Congress’ purpose in enacting the securities laws was to regulate investments, in

2

whatever form they are made and by whatever name they are called.” S.E.C. v.

3

Edwards, 540 U.S. 389, 393 (2004) (citation omitted) (emphasis in original). “To

4

that end, it enacted a broad definition of ‘security,’ sufficient ‘to encompass

5

virtually any instrument that might be sold as an investment.’” Id. See also Reves

6

v. Ernst & Young, 494 U.S. 56, 60 (1990) (“In defining the scope of the market

7

that it wished to regulate [via the federal securities laws], Congress painted with a

8

broad brush.”); Tcherepnin v. Knight, 389 U.S. 332, 336 (1967) (“[I]n searching

9

for the meaning and scope of the word ‘security’ in the Act, form should be

10

disregarded for substance and the emphasis should be on economic reality.”);

11

S.E.C. v. C.M. Joiner Leasing Corp., 320 U.S. 344, 351 (1943) (“Novel,

12

uncommon, or irregular devices, whatever they appear to be, are also reached if it

13

be proved as matter of fact that they were widely offered or dealt in under terms or

14

courses of dealing which established their character in commerce as ‘investment

15

contracts,’ or as ‘any interest or instrument commonly known as a ‘security.’”).

16

In S.E.C. v. W.J. Howey Co., the Supreme Court defined an “investment

17

contract” as “a contract, transaction or scheme whereby a person invests his

18

money in a common enterprise and is led to expect profits solely from the efforts

19
20
21
22
23
24
25
26
27
28

bond, debenture, certificate of interest or participation in any profit-sharing
agreement or in any oil, gas, or other mineral royalty or lease, any
collateral-trust certificate, preorganization certificate or subscription,
transferable share, investment contract, voting-trust certificate, certificate
of deposit for a security, any put, call, straddle, option, or privilege on any
security, certificate of deposit, or group or index of securities (including any
interest therein or based on the value thereof), or any put, call, straddle,
option, or privilege entered into on a national securities exchange relating to
foreign currency, or in general, any instrument commonly known as a
“security”; or any certificate of interest or participation in, temporary or
interim certificate for, receipt for, or warrant or right to subscribe to or
purchase, any of the foregoing; but shall not include currency or any note,
draft, bill of exchange, or banker’s acceptance which has a maturity at the
time of issuance of not exceeding nine months, exclusive of days of grace,
or any renewal thereof the maturity of which is likewise limited.
15 U.S.C. § 78c(a)(10) (emphasis added). The term “investment contract” is not
defined in the Act.
6
App. 36

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 7 of 25 Page ID #:12683

1

of the promoter or a third party.” 328 U.S. 293, 298-99 (1946). The Ninth Circuit

2

has held the definition of “investment contract” set forth in Howey created a three-

3

part test requiring: “(1) an investment of money (2) in a common enterprise (3)

4

with an expectation of profits produced by the efforts of others.” Warfield v.

5

Alaniz, 569 F.3d 1015, 1020 (9th Cir. 2009) (citation omitted). The third prong of

6

this test “involves two distinct concepts: whether a transaction involves any

7

expectation of profit and whether expected profits are the product of the efforts of

8

a person other than the investor.” Id.
“[W]hile the subjective intent of the purchasers may have some bearing on

9
10

the issue of whether they entered into investment contracts, [the Court] must focus

11

[its] inquiry on what the purchasers were offered or promised.” Warfield, 569

12

F.3d at 1021. Therefore, “[u]nder Howey, courts conduct an objective inquiry into

13

the character of the instrument or transaction offered based on what the purchasers

14

were ‘led to expect.’” Id. (citing Howey, 328 U.S. at 298-99); see also C.M.

15

Joiner Leasing Corp., 320 U.S. at 352-53 (“The test [for determining whether an

16

instrument is a security] … is what character the instrument is given in commerce

17

by the terms of the offer, the plan of distribution, and the economic inducements

18

held out to the prospect.”) (Emphasis added.); Edwards, 540 U.S. at 392

19

(payphone sale and buyback scheme involved investment contracts where

20

promotional materials noted “potential for ongoing revenue generation”).

21

The parties disagree as to whether the third prong of the Howey test is met.3

22

Regulations governing the EB-5 Program, which became effective in

23

November 2011, provides: “To show that the petitioner has invested or is actively

24

in the process of investing the required amount of capital, the petition must be

25

accompanied by evidence that the petitioner has placed the required amount of

26

capital at risk for the purpose of generating a return on the capital placed at

27
28

3

Defendants do not contend the first or second prongs of the Howey test is not
satisfied here.
7
App. 37

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 8 of 25 Page ID #:12684

1

risk.” 8 C.F.R. § 204.6 (emphasis added). Based on the evidence before the

2

Court, there is no genuine issue of material fact that (1) the terms of the EB-5

3

investments note a potential for profit;4 (2) many of the private placement

4

memoranda for the EB-5 investments describe the offerings as “securities”;5 and

5

(3) the regional centers’ offerings were designed to meet the requirements set forth

6

in 8 C.F.R. § 204.6 that capital must be invested for the purpose of generating a

7

return.6
Defendants nevertheless argue the third prong re: expectation of profits is

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

4

See, e.g., Escalante Decl. Ex. 151 at p.1282 (“However, investment in the
Partnership also offers investors an opportunity for a non-guaranteed annual return
as described in the Offering Memorandum. With essential investment elements of
risk and return incorporated in the Offering Memorandum, the Partnership
complies with the terms of the program regulations.”), Ex. 156 at p.1317 (same),
Ex. 164 at p.1699 (“In the case of Lam Group’s Pearl Street Project, the EB-5
investment is indeed generating a 1.5% return on the investment, however, the
language did not specify that the 1.5% interest would be distributed to the
individual investors; rather the return is maintained at the level of the new
commercial enterprise. To remedy the ambiguity, the Regional Center has
amended its offering documents to reflect that the EB-5 investors would
individually be earning an interest payment.”); Feng Decl. Ex. 2 (0.5% annual
return on investment), Ex. 3 (4.25% annual interest income), Ex. 4 (up to 4%
annual interest income), Ex. 82 at p.3 (6% annual return on investment); Ex. 7
(0.5% annual return on investment), Ex. 8 (0.5% annual return on investment ),
Ex. 80 (up to 5% annual interest income), Ex. 81 (up to 4.5% annual interest
income), Ex. 82 (5% annual interest income), Ex. 83 (6.25% annual interest rate of
return).)
5
See evidence cited in support of SEC Statement of Fact Nos. 21-22, 27-28, 3032; see also Feng Decl. Ex. 2 at p.6 (“THE UNITS ARE RESTRICTED
SECURITIES UNDER THE SECURITIES ACT.”), Ex. 3 at p.i (“THE
SECURITIES OFFERED HEREBY CANNOT BE OFFERED OR SOLD IN
THE UNITED STATES OR TO “U.S. PERSONS” (AS SUCH TERM IS
DEFINED IN REGULATIONS, PROMULGATED UNDER THE SECURITIES
ACT) UNLESS THE SECURITIES ARE REGISTERED UNDER THE
SECURITIES ACT, OR AN EXEMPTION FROM THE REGISTRATION
REQUIREMENTS OF THE SECURITIES ACT IS AVAILABLE.”), Ex. 4 at p.i
(same), Ex. 80 at p.i (same), Ex. 81 at p.i (same), Ex. 82 at p.i (same), Ex. 83 at p.i
(same).) See SEC v. United Ben. Life Ins. Co., 387 U.S. 202, 211 (1967) (“In the
enforcement of an act such as this it is not inappropriate that promoters’ offering
be judged as being what they were represented to be.”); Warfield, 569 F.3d at
1021 (“[C]ourts have frequently examined the promotional materials associated
with an instrument or transaction in determining whether an investment contract is
present.”).
6
See evidence cited in support of SEC Statement of Fact No. 50. See also
Escalante Decl. Ex. 187 (filing with USCIS wherein Feng represented that
“Investor’s investment entitles her to a share of profits and cash flows generated
by the business of CMB Group IV.”).
8
App. 38

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 9 of 25 Page ID #:12685

1

not satisfied here because: (1) the EB-5 investments were motivated by

2

Defendants’ clients’ desire for permanent resident status in the U.S.;7 and (2) the

3

terms of the EB-5 investments demonstrate Defendants’ clients had no expectation

4

of profits because EB-5 clients were required to pay mandatory administrative

5

fees to regional centers8 which cost more than the actual profit made by their EB-5

6

investments.9
First, the expectation of profits prong can be satisfied even where

7
8

investments are made primarily for other reasons in addition to profit. Defendants

9

argue the EB-5 investments were not solely made for profits, and therefore are not

10

investment contracts, relying on dicta in United Hous. Found., Inc. v. Forman,

11

421 U.S. 837 (1975). In Forman, the Supreme Court noted in dicta:

12

[T]he basic test for distinguishing the transaction [involving a
security] from other commercial dealings is whether the scheme
involves an investment of money in a common enterprise with profits
to come solely from the efforts of others. The touchstone is the
presence of an investment in a common venture premised on a
reasonable expectation of profits to be derived from the
entrepreneurial or managerial efforts of others. By profits, the Court
has meant either capital appreciation resulting from the development
of the initial investment ([e.g.,] sale of oil leases conditioned on
promoters’ agreement to drill exploratory well), or a participation in
earnings resulting from the use of investors' funds, ([e.g.,] dividends
on the investment based on savings and loan association’s profits). In

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

7

It is undisputed representatives of regional centers acknowledge EB-5 investors
hope to obtain green cards. (See evidence cited in support of Defendants’
Statement of Fact No. 34.)
8
Defendants submit offering documents for EB-5 investments between regional
centers and Defendants’ clients demonstrating clients were required to pay
administrative fees ranging from $30,000 to $65,000. (See Feng Decl. Exs. 3, 4,
7, 8, 80, 81, 82, 83, 110.)
9
Defendants also contend the SEC has “historically conceded that an EB-5
investment without an expectation of profit is not a security,” and request that the
Court take judicial notice of a January 18, 2002 No Action Letter issued by the
SEC. (See Dkt. No. 67.) The Court can only take judicial notice of the existence
of the SEC’s no action letter, and not the truth of the contents of therein. (See
supra at p.5 (denying Defendants’ requests for judicial notice).) See Fed. R. Evid.
402; Lee, 250 F.3d at 690. Moreover, the SEC’s no action letter is based on “the
facts presented” before the SEC in an unrelated matter, and is not binding on this
Court. See Aventa Learning, Inc. v. K12 Inc., 2011 WL 13100748, at *4 (W.D.
Wash. Mar. 28, 2011); Holmes v. Bartlett, 2004 WL 793190, at *3 (D. Or. Mar.
30, 2004), report and recommendation adopted, 2004 WL 1173138 (D. Or. May
21, 2004).
9
App. 39

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 10 of 25 Page ID
#:12686

1
2

such cases the investor is attracted solely by the prospects of a return
on his investment. By contrast, when a purchaser is motivated by a
desire to use or consume the item purchased—to occupy the land or
to develop it themselves. . . —the securities laws do not apply.

3

421 U.S. at 852-53 (emphasis added) (internal quotations and citations omitted).

4

The Ninth Circuit and Second Circuit, however, have both held post-Forman that

5

investments promoted primarily for tax benefits nevertheless satisfied the

6

expectation of profits prong under the Howey test. See S.E.C. v. Goldfield Deep

7

Mines Co. of Nevada, 758 F.2d 459, 463-64 (9th Cir. 1985); S.E.C. v. Aqua-Sonic

8

Prods. Corp., 687 F.2d 577 (2d Cir. 1982), cert. denied, 459 U.S. 1086 (1982).

9

Therefore, evidence demonstrating Defendants’ clients were also motivated to

10

make EB-5 investments to obtain permanent residency in the United States does

11

not preclude a determination that the EB-5 investments involved an expectation of

12

profits and are therefore securities. See S.E.C. v. Liu, 2016 U.S. Dist. LEXIS

13

181536, at *9-12 (C.D. Cal. Aug. 17, 2016) (finding EB-5 investments were

14

securities under the Act despite defendants’ contention investors’ did not have a

15

“primary profit motive,” reasoning although “nobody would dispute that EB-5

16

investors are motivated in significant part by obtaining lawful permanent

17

residency in the United States[,] . . . the fact that the acquisition of EB-5 shares

18

comes with unrelated benefits does not somehow convert the shares from

19

securities into something else”).

20

Second, Defendants cite to no authority in support of the proposition there

21

can be no “expectation of profits” where clients are required to pay fees greater

22

than their actual profits. The district court’s opinion in S.E.C. v. Liu is persuasive

23

on this point:

24
25
26
27
28

The fact that [EB-5] investors paid a significant fee to invest . . .—a
fee larger than the projected profits—does not alter this conclusion
[that the instruments are securities under the Act]. Defendants have
produced no legal authority for the proposition that the size of an
investment fee can alter the nature of an investment contract itself.
An [EB-5] investor who pays a fee to purchase securities has
nonetheless purchased securities. The question here is not whether
some combination of EB-5 shares and fees are profitable securities,
but whether the shares themselves . . . qualify as investment
10
App. 40

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 11 of 25 Page ID
#:12687

2

contracts. . . . Conflating fees paid to administer an offering with
the proceeds of the offering itself makes little sense when
determining whether the proceeds of the offering were expected to
be profitable.

3

2016 U.S. Dist. LEXIS 181536, at *12 (emphasis added). Moreover, the issue is

4

not whether investors actually received a profit, but whether there was an

5

expectation of profit based on the objective terms of the offerings. See Warfield,

6

569 F.3d at 1020. Therefore, evidence Defendants’ clients were required to pay

7

administrative fees for their EB-5 investments is irrelevant in determining whether

8

there was an “expectation of profits” under the Howey test.

1

Here, although it is undisputed EB-5 investors are also motivated to make

9
10

investments to obtain permanent residency in the United States, the EB-5

11

regulations require, and the terms of the EB-5 investments demonstrate capital

12

contributions were made by Defendants’ clients for the purpose of generating a

13

return. Accordingly, the Court finds the EB-5 investments are investment

14

contracts and therefore securities governed by federal securities laws and

15

regulations.10

16

D.

Whether Defendants Acted As “Brokers” Covered By the Act

17

Section 3(a)(4) of the Act defines “broker” as “any person engaged in the

18

business of effecting transactions in securities for the account of others, but does

19

not include a bank.” 15 U.S.C. § 78c(a)(4). The purpose of Section 15(a)’s

20

broker registration requirement is to ensure that “securities are [only] sold by a

21

salesman who understands and appreciates both the nature of the securities he sells

22

and his responsibilities to the investor to whom he sells.” Roth v. S.E.C., 22 F.3d

23

1108, 1109 (D.C. Cir. 1994). See also Edwards, 549 U.S. at 393 (“Congress’

24

purpose in enacting the securities laws was to regulate investments, in whatever

25

form they are made and by whatever name they are called.”).11

26

10

27
28

See S.E.C. v. Liu, 2016 U.S. Dist. LEXIS 181536, at *9-12; see also Edwards,
540 U.S. at 392; Warfield, 569 F.3d at 1021; S.E.C. v. U.S. Reservation Bank &
Trust, 289 F. App’x 228, 230-31 (9th Cir. 2008).
11
Whether a security is exempt from registration and therefore not sold on an
exchange facility is irrelevant to the issue of whether Defendants acted as brokers
11
App. 41

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 12 of 25 Page ID
#:12688

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

(1)

Exemptions from Broker Registration

Defendants argue they should be exempt from the Act’s broker-registration
requirements as a matter of public policy since attorneys already have heightened
fiduciary duties owed to their clients. Defendants rely on 11 U.S.C. §80b-2(a)(11)
of the Investment Advisers Act of 1940, which defines an “investment advisor” as
“any person who… engages in the business of advising others…as to the value of
securities or as to the advisability of investing in, purchasing, or selling
securities…,” but expressly excludes lawyers from this definition so long as their
“performance of such services [are] solely incidental to the practice of [their]
profession.” No attorney exemption, however, is set forth in Section 15 of the
Act.12 Accordingly, the Court declines to adopt an exemption for attorneys from
broker registration requirements under the Act based on public policy grounds.
Defendants also argue they are exempt from registering as brokers because
it is undisputed Defendants’ clients’ EB-5 investments were not traded on a
national securities exchange. Section 15(a) provides:
It shall be unlawful for any broker or dealer... (other than such a
broker or dealer whose business is exclusively intrastate and who
does not make use of any facility of a national securities exchange)
to make use of the mails or any means or instrumentality of interstate
commerce to effect any transactions in, or to induce or attempt to
induce the purchase or sale of, any security other than an exempted
security or commercial paper, bankers’ acceptances, or commercial
bills) unless such broker or dealer is registered in accordance with
subsection (b) of this section.
15 U.S.C. § 78o(a)(1) (emphasis added). The plain language of Section 15(a)

22
23
24
25
26
27
28

and were required to register as brokers under the Act. See Eastside Church of
Christ v. Nat’l Plan, Inc., 391 F.2d 357, 361 (5th Cir. 1968) (the fact that
securities at issue may be exempt from registration under the Act “does not relate
to the antifraud or broker-dealer registration provisions” of the Act).
12
Under general principles of statutory interpretation, where the legislature
expressly excluded attorneys from the definition of investment advisor under the
Investment Advisors Act, but did not exclude attorneys from the definition of
investment advisors in the Securities Exchange Act, this demonstrates the
legislature did not intend to exclude attorneys from broker registration
requirements under the Securities Exchange Act. See, e.g., F.T.C. v. Sun Oil Co.,
371 U.S. 505, 514-15 (1963).
12
App. 42

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 13 of 25 Page ID
#:12689

1

requires both exclusive intrastate business and non-use of any facility of a national

2

securities exchange to be exempt from the Act’s broker registration requirements.

3

Id. Here, however, the undisputed evidence demonstrates Defendants’ business

4

was not “exclusively intrastate.” Accordingly, Section 15(a)’s limited exclusion

5

for non-registration does not apply to Defendants.13

6

(2)

7

Courts in the Ninth Circuit have considered the Hansen factors14 in

8

determining whether an individual qualifies as a “broker” covered by the Act,

9

including whether the individual:

10

Hansen Factors

(1)
(2)

11
12

(3)
(4)
(5)
(6)
(7)
(8)

13
14
15
16

is an employee of the issuer of the security;15
received transaction-based income such as commissions rather
than a salary;
sells or sold securities from other issuers;
was involved in negotiations between issuers and investors;
advertising for clients;
gave advice or made valuations regarding the investment;
was an active finder of investors; and
regularly participates in securities transactions.

17

See S.E.C. v. Braslau, 2014 WL 6473378, at *5 (C.D. Cal. Nov. 17, 2014); S.E.C.

18

v. Holcom, 2015 WL 11233426, at *4, *6 (S.D. Cal. Jan. 8, 2015) (citing Hansen,

19

1984 WL 2413, at *10); S.E.C. v. Small Bus. Capital Corp., 2013 WL 4455850, at

20
21
22
23
24
25
26
27
28

13

In arguing they were not required to register as brokers because the EB-5
investments were not traded using exchange facilities, Defendants rely on the
heading for Section 15(a) of the Act, which does not reference intrastate business
and simply states: “Registration of all persons utilizing exchange facilities to
effect transactions; exemptions.” 15 U.S.C. § 78o(a)(1)(emphasis added).
Defendants, however, cannot rely on the heading of Section 15(a) rather than the
plain language of the statute, for purposes of determining whether they were
required to register as brokers under Section 15(a). See Pennsylvania Dep’t of
Corr. v. Yeskey, 524 U.S. 206, 212 (1998); Bhd. of R. R. Trainmen v. Baltimore &
O. R. Co., 331 U.S. 519, 528-29 (1947).
14
See S.E.C. v. Hansen, 1984 WL 2413, at *10 (S.D.N.Y. Apr. 6, 1984).
15
There is no genuine issue of material fact that Defendants were not employees
of the regional centers. (See evidence cited in support of Defendants Statement of
Fact No. 48.)
13
App. 43

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 14 of 25 Page ID
#:12690

1

*14 (N.D. Cal. Aug. 16, 2013).16
Here, the undisputed evidence demonstrates: (1) Feng received transaction-

2
3

based income in the form of commissions or referral fees for referring his clients

4

to the regional centers; (2) Defendants have provided services in connection with

5

the EB-5 Program since 2010, Feng started trading securities in 2003, and

6

operated a hedge fund from 2008 to 2014 for which he conducted securities

7

transactions;17 (3) Defendants advertised for clients and were active finders of

8

investors by promoting EB-5 projects on the internet and through Feng’s website;

9

(4) Defendants were involved in negotiations between regional centers and

10

investors by interfacing directly with regional centers regarding his clients’ EB-5

11

investments, asking regional centers numerous questions regarding the projects,

12

and negotiating with regional centers as to the amount of administrative fees and

13

rebates on Defendants’ clients’ behalf;18 and (5) Defendants gave advice regarding

14

investments by conducting research and performed due diligence regarding EB-5

15

investment projects and providing lists of EB-5 regional centers they

16

recommended clients to invest in.19 Accordingly, each of the Hansen factors—

17
18
19
20
21
22
23
24
25
26
27
28

16

Some courts have found the transaction-based compensation factor should be
given substantial weight in determining whether the person is a broker under the
Act. See, e.g., Landegger, 2013 WL 5444052, at *6; S.E.C. v. Kramer, 778 F.
Supp. 2d 1320, 1334 (M.D. Fla. 2011); Cornhusker Energy Lexington, LLC v.
Prospect St. Ventures, 2006 WL 2620985, at *6 (D. Neb. Sept. 12, 2006).
17
Feng declares he has “never sold securities” (Feng Decl. ¶ 35), which directly
contradicts his prior sworn testimony and therefore cannot be used to create a
genuine issue of material fact. Accordingly, the Court disregards this portion of
Feng’s declaration as a “sham” declaration. See Nelson v. City of Davis, 571 F.3d
924, 927 (9th Cir. 2009); Kennedy v. Allied Mut. Ins. Co., 952 F.2d 262, 266-67
(9th Cir. 1991).
18
Feng declares he has “never been involved in negotiating the financial terms of
[EB-5] investments on [his] clients’ behalf.” (Feng Decl. ¶22.) The Court
disregards this portion of Feng’s declaration as a “sham” declaration because it
directly contradicts his prior sworn testimony and cannot be used to create a
genuine issue of material fact. See Nelson, 571 F.3d at 927; Kennedy, 952 F.2d at
266-67.
19
Feng declares he “do[es] not perform any analysis, or make any
recommendations to [his] clients based on whether certain projects offer a higher
financial return than others.” (Feng Decl. ¶¶ 20, 37.) The Court disregards this
portion of Feng’s declaration as a “sham” declaration because it directly
14
App. 44

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 15 of 25 Page ID
#:12691

1

other than the employee of issuer factor—demonstrate Defendants acted as

2

brokers under the Act.20
The Court therefore finds Defendants were brokers subject to registration

3
4

requirements under Section 15(a) of the Act.
*

5

*

*

It is undisputed Defendants never registered as a broker. Accordingly, the

6
7

Court finds Defendants failed to register as brokers in violation of Section 15(a) of

8

the Act.

9

E.

10

Securities Fraud—Section 17(a)(2), Section 10(b), and Rule 10b-5
The SEC’s first and second causes of action are for violation of Section

11

17(a)(2) and Section 10(b) of the Act, and Rule 10b-5. “Section 17(a) Act,

12

Section 10(b), and Rule 10b–5 forbid making [1] a material misstatement or

13

omission [2] in connection with the offer or sale of a security [3] by means of

14

interstate commerce.”21 S.E.C. v. Phan, 500 F.3d 895, 907-08 (9th Cir. 2007)

15

(internal quotations and citations omitted); see also S.E.C. v. Platforms Wireless

16

Int’l Corp., 617 F.3d 1072, 1092 (9th Cir. 2010).22 Violations of Section 10(b)

17

contradicts his prior sworn testimony and cannot be used to create a genuine issue
of material fact. See Nelson, 571 F.3d at 927; Kennedy, 952 F.2d at 266-67.
20
Notwithstanding the Hansen factors, Defendants, relying on S.E.C. v. M&A
West, Inc., 2005 WL 1514101 (N.D. Cal. June 20, 2005), aff’d, 538 F.3d 1043 (9th
Cir. 2008), and S.E.C. v. Mapp, 2016 U.S.Dist.LEXIS 140141 (E.D. Tex. Oct. 7,
2016), argue they did not act as brokers because there were only “three isolated
incidents” during which a client wired funds to Feng, who then transferred the
funds to the escrow agent specified by the regional center. Both M&A West and
Mapp are distinguishable because those cases dealt with situations where there
was no evidence (or no allegations) that the defendant had been entrusted with
assets or authorized to transact for the account of others. In contrast, here it is
undisputed that “[f]rom time to time, an investor would wire funds to Feng, who
handled the transfer of funds to the regional centers.” (See evidence cited in
support of SEC Statement of Fact No. 147.)
21
The parties do not address the interstate commerce factor, but it is undisputed
Defendants had offices in the United States and China, Defendants’ EB-5 clients
were from China, and Defendants’ clients made investments with regional centers
in the United States as part of the EB-5 Program.
22
Defendants argue there is no evidence the regional centers actually or
reasonably relied on Defendants’ alleged misrepresentations. However, “the SEC,
unlike a private plaintiff, is not required to establish reliance for a § 10b or Rule
10b–5 securities fraud action.” S.E.C. v. All. Leasing Corp., 28 F. App’x 648, 652

18
19
20
21
22
23
24
25
26
27
28

15
App. 45

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 16 of 25 Page ID
#:12692

1

and Rule 10b–5 “require scienter,” whereas [v]iolations of Sections 17(a)(2) . . .

2

require a showing of negligence.” Phan, 500 F.3d at 908.

3

(1)

4

A fact “is material ‘if there is a substantial likelihood that the disclosure of

Material Omissions

5

the omitted fact would have been viewed by the reasonable investor as having

6

significantly altered the total mix of information made available.’” Platforms

7

Wireless Int’l Corp., 617 F.3d at 1092 (quoting Phan, 500 F.3d at 908).23

8
9

Feng declares: (1) he did not voluntarily disclose regional centers paid him
a referral fee prior to February 2015; (2) he only acknowledged he received a

10

referral fee from regional centers if clients asked him; and (3) as of February 2015

11

he began to disclose he would receive referral fees in the engagement agreements

12

his clients signed prior to retaining Feng’s legal services. (Feng Decl. ¶ 34.)24

13

The SEC offers evidence Defendants’ clients would have chosen a cheaper

14

investment or asked to receive a portion of Defendants’ commissions if they had

15
16
17
18
19
20
21
22
23
24
25
26
27
28

(9th Cir. 2002) (citing S.E.C. v. Rana Research Inc., 8 F.3d 1358, 1363-64 (9th
Cir. 1993)).
23
“Determining materiality in securities fraud cases should ordinarily be left to the
trier of fact.” Phan, 500 F.3d at 908 (internal quotations and citation omitted).
“Materiality typically cannot be determined as a matter of summary judgment
because it depends on determining a hypothetical investor’s reaction to the alleged
misstatement.” Id. “Only if the established omissions are so obviously important
to an investor, that reasonable minds cannot differ on the question of materiality is
the ultimate issue of materiality appropriately resolved as a matter of law by
summary judgment.” TSC Indus. v. Northway, Inc., 426 U.S. 438, 450 (1976).
Here, the parties agree materiality may be determined as a matter of law.
Moreover, the Court finds no reasonable minds can differ on whether Defendants’
omissions were material. (See infra.)
24
Defendants focus on the fact Feng disclosed receiving commissions if clients
asked him. The burden to disclose, however, is on Defendants—it is not clients’
burden to inquire whether Defendants have a conflict of interest. Moreover, it is
undisputed only 10-20% of Feng’s clients specifically asked if Feng was being
compensated by regional centers. (See evidence cited in support of SEC
Statement of Fact No. 199.) Moreover, the SEC legal ethics expert opined that
Feng’s purported “disclosure” in his legal services agreements after February 2015
fails to meet applicable ethical disclosure requirements. (See Wendel Decl. ¶¶ 2324.)
16
App. 46

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 17 of 25 Page ID
#:12693

1

known Defendants received money from the regional centers.25
The Court finds Defendants’ omissions regarding receipt of referral fees are

2
3

material as a matter of law. See S.E.C. v. All. Leasing Corp., 28 F. App’x 648,

4

652 (9th Cir. 2002) (defendant’s failure to disclose a 30% commission was

5

material as a matter of law to the investor’s assessment of the strength of the

6

potential investment because “reasonable minds cannot differ on the question of

7

materiality”) (quoting TSC Indus., 426 U.S. at 450); United States v. Laurienti,

8

611 F.3d 530, 541 (9th Cir. 2010) (noting “[i]n deciding whether to buy a given

9

stock, a reasonable investor would consider it important that, in contrast to the

10

purchase of most stocks, the broker would receive a 5% commission from the

11

purchase of this particular (house) stock,” and therefore “reject[ing] Defendants’

12

argument that the bonus commissions are immaterial as a matter of law”); Schaffer

13

Family Inv’rs LLC v. Sonnier, 2016 WL 6917269, at *6 (C.D. Cal. July 5, 2016)

14

(finding defendant’s misrepresentation he did not have any financial benefit in

15

connection with investments made by plaintiffs were material misrepresentations

16

as a matter of law where defendant admitted “he did in fact receive ‘finder’s fees’

17

and commissions . . . in connection with the investments made by Plaintiffs

18

throughout the period from 2008 to 2013”).26
Moreover, “[i]t is indisputable that potential conflicts of interest are

19
20

‘material’ facts with respect to clients.” Vernazza v. S.E.C., 327 F.3d 851, 859

21

(9th Cir.), amended, 335 F.3d 1096 (9th Cir. 2003) (emphasis added).27 Here,

22

25

23
24
25
26
27
28

See Escalante Decl. Ex. 201, Fenglei Bao 7/15/15 SEC Inv. Test. 29:1-33:4; id.
Ex. 207, Xiangyang Guo 7/28/15 SEC Inv. Test. 29:16-30:19; id. Ex. 206, Feng
Depo. 292:2-284:1.
26
Defendants’ omissions regarding receipt of commissions is material as a matter
of law, even assuming the overall cost to clients was the same regardless of the
commission received by Defendants. See Laurienti, 611 F.3d at 535, 541
(rejecting defendant’s contention that omissions regarding bonus commissions
paid to brokers for house stocks were “immaterial as a matter of law” despite fact
overall cost to the client was the same, regardless of the commission received by
the broker).
27
See also S.E.C. v. Capital Gains Research Bureau, Inc., 375 U.S. 180, 201
(1963); Chasins, 438 F.2d at 1172.
17
App. 47

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 18 of 25 Page ID
#:12694

1

Feng testified there was a potential conflict of interest with respect to Defendants’

2

receipt of commissions/referral fees from regional centers.28

3

(2)

In Connection With the Offer or Sale of a Security

4

Defendants promoted certain regional centers to their clients but failed to

5

disclose their financial interest (i.e., receipt of commissions/referral fees) in those

6

regional centers. Defendants’ clients in turn invested in securities offered by those

7

regional centers recommended by Defendants. Therefore, Defendants’ omissions

8

“coincided” with a securities transaction. Merrill Lynch, Pierce, Fenner & Smith

9

Inc. v. Dabit, 547 U.S. 71, 85 (2006). See also Feitelberg v. Merrill Lynch & Co.,

10

234 F. Supp. 2d 1043, 1052 (N.D. Cal. 2002), aff’d sub nom. Feitelberg v. Merrill

11

Lynch & Co., 353 F.3d 765 (9th Cir. 2003) (finding alleged misfeasance was

12

“clearly . . . ‘in connection with’ the sale of securities” where plaintiff alleged

13

defendant’s analysts issued positive research reports to increase or maintain the

14

price of the securities of the company reported on and alleged the investing public

15

was victimized by this practice because the public “relied on what they thought

16

was objective advice”) (emphasis added). Accordingly, the Court finds

17

Defendants’ omissions were in connection with the offer or sale of a security.29

18
19
20
21
22
23
24
25
26
27
28

28

See Escalante Decl. Ex. 204, Feng 12/2/14 SEC Inv. Test. 112:23-113:23; id.
Ex. 205, Feng 2/13/15 SEC Inv. Test. 299:16-303:1. Feng also declared he
changed his standard legal service agreement in February 2015 to state the
following: “Client may obtain other advisory services from an overseas
consulting firm which is controlled by Attorney; as disclosed in EB-5 offering
documents, the consulting firm may receive compensation from sponsor
companies to cover necessary marketing and administrative fees[.] . . . The
compensation has the risk of impacting Attorney’s judgment on the project . . ..”
(Feng Decl. ¶ 34 n.4 (emphasis added).)
29
The Court rejects Defendants’ contention that the commissions they received
were not in connection with the offer or sale of a security because it was “based on
an immigration event” which “related solely to the approval of an EB-5
application.” See S.E.C. v. Zandford, 535 U.S. 813, 821 (2002) (The Supreme
Court has “refused to read the [Act] so narrowly” such that a fraud that did not
take place within the context of a securities exchange is not prohibited by §
10(b),” and has noted the Act “must be read flexibly, not technically and
restrictively” in determining whether a fraud was in connection with the purchase
or sale of securities.).
18
App. 48

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 19 of 25 Page ID
#:12695

1

(3)

Scienter/Negligence

2

“Scienter can be established by intent, knowledge, or in some cases

3

‘recklessness.’” Platforms Wireless Int’l Corp., 617 F.3d at 1092 (citing

4

Hollinger v. Titan Capital Corp., 914 F.2d 1564, 1568–69 (9th Cir.1990) (en

5

banc)). Recklessness that constitutes scienter “is conduct that consists of a highly

6

unreasonable act, or omission, that is an ‘extreme departure from the standards of

7

ordinary care, and which presents a danger of misleading buyers or sellers that is

8

either known to the defendant or is so obvious that the actor must have been aware

9

of it.’” S.E.C. v. Dain Rauscher, Inc., 254 F.3d 852, 856 (9th Cir. 2001) (quoting

10

Hollinger, 914 F.2d at 1569). Negligence for purposes of Section 17(a)(2) and (3)

11

is the “fail[ure] to use the degree of care and skill that a reasonable person of

12

ordinary prudence and intelligence would be expected to exercise in the situation.”

13

S.E.C. v. Schooler, 2015 WL 3491903, at *10 (S.D. Cal. June 3, 2015).
The SEC offers undisputed evidence that Defendants knowingly failed to

14
15

disclose their receipt of commissions to their clients because they wanted to avoid

16

having to negotiate with clients about rebating portions of the commissions.30

17

Accordingly, there is no genuine issue of material fact regarding whether

18

Defendants acted with scienter in failing to disclose their receipt of commissions.

19

(4)

Scheme to Defraud

20

Section 17(a)(1) makes it “unlawful for any person in the offer or sale of

21

any securities . . . to employ any device, scheme, or artifice to defraud” or “engage

22

in any transaction, practice, or course of business which operates or would operate

23

as a fraud or deceit upon the purchaser.” 15 U.S.C. § 77q(a)(1), (3). Similarly,

24

Rule 10b-5(a) and (c) make it “unlawful for any person, directly or indirectly, . . .

25

(a) To employ any device, scheme, or artifice to defraud, . . . or (c) To engage in

26

any act, practice, or course of business which operates or would operate as a fraud

27
28

30

“[W]hether or not [Defendants] believed that the investment program was a
security is not material to scienter.” All. Leasing Corp., 28 F. App’x at 651-52.
19
App. 49

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 20 of 25 Page ID
#:12696

1

or deceit upon any person, in connection with the purchase or sale of any

2

security.” 17 C.F.R. § 240.10b-5(a), (c). To be liable for a scheme to defraud

3

under Section 17(a) and Rule 10b-5, a defendant must have “committed a

4

manipulative or deceptive act in furtherance of the scheme.” Cooper v. Pickett,

5

137 F.3d 616, 624 (9th Cir. 1997). See also Desai v. Deutsche Bank Sec. Ltd., 573

6

F.3d 931, 938 (9th Cir. 2009). Specifically, the defendant “must have engaged in

7

conduct that had the principal purpose and effect of creating a false appearance of

8

fact in furtherance of the scheme. It is not enough that a transaction in which a

9

defendant was involved had a deceptive purpose and effect; the defendant’s own

10

conduct contributing to the transaction or overall scheme must have had a

11

deceptive purpose and effect.” Simpson v. AOL Time Warner, Inc., 452 F.3d

12

1040, 1048 (9th Cir. 2006), vacated on other grounds by Simpson v.

13

Homestore.com, 519 F.3d 1041, 1041-42 (9th Cir. 2008) (emphasis in original).

14

As to Defendants’ clients, there is no genuine issue of material fact based

15

on the evidence before this Court that (1) Feng would try to make it appear the

16

rebate was coming from the regional center, rather than from Feng, because he

17

wanted his clients to think he was negotiating on their behalf; (2) Feng believed if

18

his client knew the rebate was coming from Feng, the client would demand that

19

Feng rebate the rest of the referral fee/commission from Feng; (3) when Feng does

20

negotiate for a regional center to rebate a fee, in some instances 100% of the

21

rebate is coming from Feng’s marketing fee but Feng does not disclose this to his

22

clients. (See evidence cited in support of SEC’s Statement of Fact Nos. 210-212.)

23

Accordingly, it is undisputed Defendants acted to create a “false appearance of

24

fact” to clients that rebates were coming from regional centers in order to prevent

25

Defendants’ clients from demanding money from Feng.

26
27
28

As to regional centers, there is no genuine issue of material fact based on
the evidence before this Court that:
(1)

Feng was solely responsible for setting up ABCL, has sole
20
App. 50

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 21 of 25 Page ID
#:12697

control over ABCL’s bank account, and is the sole beneficial
owner of ABCL;

1
2
3
4

(2)

ABCL had no employees other than employees of Feng’s law
firm;

(3)

Although Xing Tan was added as a 50% owner of ABCL in
December 2014, she has no dealings with clients or regional
centers, has no authority over ABCL’s bank account, and has
never received compensation from ABCL;

(4)

Feng represented to regional centers he was working with
individuals in China who were procuring investors and who
demanded payment of referral fees;

(5)

Feng had his relatives execute referral agreements on behalf of
ABCL with some regional centers even though the relatives
had no role in procuring investors;

(6)

Xiuyuan Tan signed agreements with regional centers wherein
she identified herself as “President” of ABCL;

(7)

Xiuyuan Tan signed a marketing agreement with regional
center DCRC-Skyland wherein DCRC-Skyland agreed to pay
Tan a fee of $30,000 per client;

(8)

Feng emailed regional center DCRC-Skyland on January 11,
2014 and wrote “attached is the signed marketing agreement to
our agent in China”;

(9)

Xiuyuan Tan is Feng’s mother and had nothing to do with the
procurement of investors and did not provide services under
the marketing agreements she signed with regional centers;

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(10) Feng never told DCRC regional center that Xiuyuan Tan was
his mother, that she had no role in finding overseas EB5
investors, and that she had no role at ABCL;
(11) DCRC-Skyland regional center wired $210,000 in
commissions to a bank in Hong Kong to an account in the
name of Huizhen Xi, Feng’s mother-in law;
(12) Feng did not disclose to DCRC that Huizhen Xi was Feng’s
mother-in-law who had nothing to do with the procurement of
investors or otherwise providing services under the agreement
with DCRC;
(13) DCRC regional center entered into a foreign finder agreement
with ABCL on September 16, 2015, wherein ABCL
represented neither ABCL, its general partners, managing
members, directors, executive officers nor any other officer is a
citizen of the US, ABCL did not directly or indirectly maintain
a physical office in the United States, and ABCL and its
representatives will conduct all of their activities outside the
U.S.;
21
App. 51

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 22 of 25 Page ID
#:12698

(14) DCRC wired commissions to an account in the name of ABCL
for finding investors;

1
2

(15) Feng never told DCRC regional center that Feng is a 50%
owner of ABCL; and

3

(16) DCRC would likely have ceased doing business with Feng and
his Chinese “agents” had Feng
disclosed his relationship to
ABCL and those “agents.”31

4
5

Defendants contend regional centers knew Defendants were using overseas

6
7

agents and overseas companies related to Defendants to accept payments from

8

regional centers, relying on deposition testimony from Brian Ostar, a

9

representative of EB-5 Capital regional center, who testified that he asked Feng,

10

“Do you have a sister agency in China who we can pay” referral fees. (Holmes

11

Decl. Ex. 14, Ostar Depo. 68:4-14.) Defendants argue “sister” agency did not

12

mean a company with no relationship to Feng, and therefore regional centers

13

asked for and knew Chinese agents and ABCL had relationships with Feng. The

14

evidence offered by Defendants, however, is limited to one regional center.

15

Moreover, the next nine lines of Ostar’s deposition, which were excluded by

16

Defendants, provide:

17

Q. [When you asked if Feng has a “sister agency” in China you could
pay,] [d]id you mean an unrelated entity with which -- with whom Mr.
Feng dealt with in China?
A. Yes.
Q. And in writing that sentence, did you mean to suggest to Mr. Feng
that he should set up a paper company so that he could indirectly
receive referral fees?
...
THE WITNESS: No.

18
19
20
21
22
23

(Ostar Depo. 68:15-24.) Accordingly, Defendants fail to offer evidence

24

demonstrating regional centers were aware of Defendants’ relationship with

25

ABCL and overseas agents. It is therefore undisputed Defendants acted to create a

26

“false appearance of fact” to regional centers regarding Defendants’ relationship

27
28

31

See evidence cited in support of SEC’s Statement of Fact Nos. 86-100, 105-107,
113-116, 249, 257, 320-325, 327, 328, 332, 333, 346, 336-338, 341, 348, 352.
22
App. 52

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 23 of 25 Page ID
#:12699

1

with ABCL and Chinese agents who received referral fees but did not procure

2

investors.
The Court thus finds Defendants violated Sections 17(a) and 10b-5 based on

3
4

a scheme to defraud clients and regional centers.

5

F.

Disgorgement of Profits and Prejudgment Interest
“The district court has broad equity powers to order the disgorgement of

6
7

‘ill-gotten gains’ obtained through the violation of the securities laws.” S.E.C. v.

8

First Pac. Bancorp, 142 F.3d 1186, 1191 (9th Cir.1998) (citations omitted).

9

“Disgorgement is designed to deprive a wrongdoer of unjust enrichment, and to

10

deter others from violating securities laws by making violations unprofitable.” Id.

11

See also Platforms Wireless, 617 F.3d at 1099-100 (affirming award of

12

prejudgment interest in securities fraud action). Joint and several liability for the

13

disgorgement of illegally obtained proceeds is appropriate “[w]here two or more

14

individuals or entities collaborate or have a close relationship in engaging in the

15

violations of the securities laws.” Platforms Wireless, 617 F.3d at 1098 (citing

16

First Pac. Bancorp, 142 F.3d at 1191-92).
The Court finds Defendants are jointly and severally liable for

17
18

disgorgement of profits in the amount of $1,268,000 for commissions received by

19

Defendants in connection with the EB-5 Program, and prejudgment interest in the

20

amount of $130,517.09.

21

G.

Civil Penalties
The Act authorizes three tiers of civil penalties, the amount of which is to

22
23

be “determined by the court in light of the facts and circumstances.” 15 U.S.C. §§

24

77t(d), 78u(d)(3)(B). Second tier penalties may be imposed where the violation

25

“involved fraud, deceit, manipulation, or deliberate or reckless disregard of a

26

regulatory requirement.” 15 U.S.C. §§ 78u(d)(3)(B), 77t(d)(2).32

27

32

28

The maximum second-tier penalty for violations that occurred between 2010
and March 5, 2013 is the greater of (1) $75,000 per violation for a natural person
or $375,000 per violation for “any other person”; or (2) the gross amount of
23
App. 53

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 24 of 25 Page ID
#:12700

Since Defendants’ violation of the Sections 10(b) and 17(a) of the Act and

1
2

Rule 10b-5 were based on fraudulent omissions, second tier penalties per violation

3

are proper here. Moreover, Defendants’ fraud continued to occur after March 5,

4

2013,33 such that second-tier penalties of $80,000 per violation by Feng and

5

$400,000 per violation by Defendant Law Offices may be imposed.
Accordingly, the Court imposes $160,000 in civil penalties against

6
7

Defendant Feng and $800,000 in civil penalties against Defendant Feng &

8

Associates as requested by the SEC.

9

H.

Permanent Injunction

10

To obtain a permanent injunction against Defendants, “the SEC had the

11

burden of showing there [is] a reasonable likelihood of future violations of the

12

securities laws.” S.E.C. v. Murphy, 626 F.2d 633, 655 (9th Cir. 1980). “The

13

existence of past violations may give rise to an inference that there will be future

14

violations.” Id. (citation omitted). “In predicting the likelihood of future

15

violations, a court must assess the totality of the circumstances surrounding the

16

defendant and his violations,” and “considers factors such as the degree of scienter

17

involved; the isolated or recurrent nature of the infraction; the defendant’s

18

recognition of the wrongful nature of his conduct; the likelihood, because of

19

defendant’s professional occupation, that future violations might occur; and the

20

sincerity of his assurances against future violations.” Id. (citation omitted).

21
22
23
24
25
26
27
28

Here, the evidence before the Court demonstrates Defendants are
immigration attorneys who have been involved in the EB-5 Program since 2010,
pecuniary to the defendant as a result of the violation. 17 C.F.R. §§ 201.1004,
201.1005. The maximum second-tier penalty for violations that occurred after
March 5, 2013 is the greater of (1) $80,000 per violation for a natural person or
$400,000 per violation for “any other person”; or (2) the gross amount of
pecuniary to the defendant as a result of the violation. 17 C.F.R. §§ 201.1004,
201.1005.
33
Defendant Feng admits he did not disclose receipt of fees from regional centers
until 2015. (See supra.) Furthermore, it is undisputed Feng did not disclose his
relationship with ABCL and his Chinese “agents” with regional centers. (See
supra.)
24
App. 54

Case 2:15-cv-09420-CBM-SS Document 101 Filed 08/10/17 Page 25 of 25 Page ID
#:12701

1

continue to advise clients in connection with the EB-5 Program, and have clients

2

with pending EB-5 petitions. Moreover, based on the evidence before the Court,

3

there is no genuine issue of material fact that (1) Defendant Feng created a new

4

off-shore entity, called Kilogram, and a new law firm called HC Law because

5

various regional centers refused to do business with ABCL and Defendants as a

6

result of the SEC’s action; (2) Feng has a 50% ownership interest in Kilogram;

7

and (3) Feng has not disclosed his ownership interest in Kilogram to regional

8

centers that have contracted with it. (See evidence cited in support of SEC’s

9

Statement of Fact Nos. 120-126.) Accordingly, a permanent injunction is

10

warranted here because the evidence demonstrates a reasonable likelihood

11

Defendants will continue to engage in conduct in violation of the Act. See, e.g.,

12

Murphy, 626 F.2d at 655; S.E.C. v. Currency Trading Int’l, Inc., 2004 WL

13

2753128, at *11 (C.D. Cal. Feb. 2, 2004); Cross Fin. Servs., Inc., 908 F. Supp. at

14

734.
IV.

15
16
17

CONCLUSION

Accordingly, the Court GRANTS the SEC’s Motion For Summary
Judgment, and DENIES Defendants’ Motion for Summary Judgment.

18
19

IT IS SO ORDERED.

20
21
22
23

DATED: August 10, 2017.

_________
______________________
_
______________________________
HON. CONSUELO
O MARSHALL
United States District Judge

24
25
26
27
28
25
App. 55

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 1 of 6 Page ID #:12702

1

JS-6

2
3
4
5
6
7
8
9
10
11
12
13

UNITED STATES DISTRICT COURT

14

CENTRAL DISTRICT OF CALIFORNIA

15

WESTERN DIVISION

16
17

SECURITIES AND EXCHANGE
COMMISSION,

18

Plaintiff,

19
20
21
22

vs.

Case No. 2:15-cv-09420-CBM-SS
FINAL JUDGMENT AGAINST HUI
FENG AND LAW OFFICES OF FENG
& ASSOCIATES, P.C.

HUI FENG and LAW OFFICES OF
FENG & ASSOCIATES P.C.,
Defendants.

23
24
25
26
27
28
App. 56

Case No. 2:15-cv-09420-CBM-SS

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 2 of 6 Page ID #:12703

1

Consistent with the Court’s Amended Order re: Motions for Summary

2

Judgment, judgment is entered in favor of Plaintiff Securities and Exchange

3

Commission (“SEC”), and against Defendants Hui Feng and Law Offices of Feng &

4

Associates P.C. (collectively, “Defendants”), as follows:

5
6

I.
1.

Defendants are permanently enjoined from violating, directly or

7

indirectly, Section 10(b) of the Securities Exchange Act of 1934 (the “Exchange

8

Act”) [15 U.S.C. § 78j(b)] and Rule 10b-5 promulgated thereunder [17 C.F.R. §

9

240.10b-5], by using any means or instrumentality of interstate commerce, or of the

10

mails, or of any facility of any national securities exchange, in connection with the

11

purchase or sale of any security:

12

A.

to employ any device, scheme, or artifice to defraud;

13

B.

to make any untrue statement of a material fact or to omit to state

14

a material fact necessary in order to make the statements made, in

15

the light of the circumstances under which they were made, not

16

misleading; or

17

C.

18
19

to engage in any transaction, practice, or course of business which
operates or would operate as a fraud or deceit upon any person.

2.

As provided in Federal Rule of Civil Procedure 65(d)(2), the foregoing

20

paragraph also binds the following who receive actual notice of this Judgment by

21

personal service or otherwise: (a) Defendants’ officers, agents, servants, employees,

22

and attorneys; and (b) other persons in active concert or participation with Defendants

23

or anyone described in 2(a).
II.

24
25

3.

Defendants are permanently enjoined from violating Section 17(a) of the

26

Securities Act of 1933 (the “Securities Act”) [15 U.S.C. § 77q(a)] in the offer or sale

27

of any security by the use of any means or instruments of transportation or

28

communication in interstate commerce or by use of the mails, directly or indirectly:
1

App. 57

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 3 of 6 Page ID #:12704

1

A.

to employ any device, scheme, or artifice to defraud;

2

B.

to obtain money or property by means of any untrue statement of a

3

material fact or any omission of a material fact necessary in order

4

to make the statements made, in light of the circumstances under

5

which they were made, not misleading; or

6

C.

7
8
9

to engage in any transaction, practice, or course of business which
operates or would operate as a fraud or deceit upon the purchaser.

4.

As provided in Federal Rule of Civil Procedure 65(d)(2), the foregoing

paragraph also binds the following who receive actual notice of this Judgment by

10

personal service or otherwise: (a) Defendants’ officers, agents, servants, employees,

11

and attorneys; and (b) other persons in active concert or participation with Defendants

12

or anyone described in 4(a).

13
14

III.
5.

Defendants are permanently enjoined from violating, directly or

15

indirectly, Section 15(a) of the Exchange Act, 15 U.S.C. § 78o(a), which makes it

16

unlawful for any broker or dealer which is either a person other than a natural person

17

or a natural person not associated with a broker or dealer which is a person other than

18

a natural person (other than such a broker or dealer whose business is exclusively

19

intrastate and who does not make sue of any facility of a national securities

20

exchange), to make use of the mails or any means or instrumentality of interstate

21

commerce to effect any transactions in, or to induce or attempt to induce the purchase

22

or sale of, any security (other than an exempted security or commercial paper,

23

bankers’ acceptances, or commercial bills) unless such broker or dealer is registered

24

in accordance with Section 15(b) of the Exchange Act, 15 U.S.C. § 78o(b).

25

6.

As provided in Federal Rule of Civil Procedure 65(d)(2), the foregoing

26

paragraph also binds the following who receive actual notice of this Final Judgment

27

by personal service or otherwise: (a) any officers, agents, servants, employees, and

28
2

App. 58

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 4 of 6 Page ID #:12705

1

attorneys of Defendants; and (b) other persons in active concert or participation with

2

Defendants or anyone described in 6(a).

3
4

IV.
7.

Defendants are also liable, jointly and severally with each other, for

5

disgorgement of $1,268,000 representing profits gained as a result of the conduct

6

alleged in the Complaint, together with prejudgment interest thereon in the amount of

7

$130,517.09, for a total of $1,398,517.09. Defendants shall satisfy this obligation by

8

paying $1,398,517.09 to the Securities and Exchange Commission within thirty (30)

9

days after entry of this Final Judgment.

10

8.

Defendants may transmit payment electronically to the SEC, which will

11

provide detailed ACH transfer/Fedwire instructions upon request. Payment may also

12

be made directly from a bank account via Pay.gov through the SEC website at

13

http://www.sec.gov/about/offices/ofm.htm. Defendants may also pay by certified

14

check, bank cashier’s check, or United States postal money order payable to the

15

Securities and Exchange Commission, which shall be delivered or mailed to

16

Enterprise Services Center

17

Accounts Receivable Branch

18

6500 South MacArthur Boulevard

19

Oklahoma City, OK 73169

20

and shall be accompanied by a letter identifying the case title, civil action number,

21

and name of this Court; the defendant as a defendant in this action; and specifying

22

that payment is made pursuant to this Final Judgment.

23

9.

Defendants shall simultaneously transmit photocopies of evidence of

24

payment and case identifying information to the SEC’s counsel in this action. By

25

making this payment, Defendants relinquish all legal and equitable right, title, and

26

interest in such funds and no part of the funds shall be returned to any of the

27

defendants.

28
3

App. 59

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 5 of 6 Page ID #:12706

1

10.

Pursuant to 15 U.S.C. § 7246, the SEC shall hold the funds (collectively,

2

the “Fund”) and may propose a plan to distribute the Fund subject to the Court’s

3

approval. The Court shall retain jurisdiction over the administration of any

4

distribution of the Fund. If the SEC staff determines that the Fund will not be

5

distributed, the SEC shall send the funds paid pursuant to this Final Judgment to the

6

United States Treasury.

7

11.

The SEC may enforce the Court’s judgment for disgorgement and

8

prejudgment interest by moving for civil contempt (and/or through other collection

9

procedures authorized by law) at any time after 14 days following entry of this Final

10

Judgment. Defendants shall pay post judgment interest on any delinquent amounts

11

pursuant to 28 U.S.C. § 1961.

12
13

V.
12.

In addition to their obligations to pay disgorgement and prejudgment

14

interest: (1) Feng shall pay a civil penalty in the amount of $160,000; and (2) Law

15

Offices of Feng & Assocs. shall pay a civil penalty in the amount of $800,000.

16

Defendants’ civil penalties are ordered pursuant to Section 20(d) of the Securities

17

Act, 15 U.S.C. § 77t(d), and Section 21(d)(3) of the Exchange Act, 15 U.S.C. §

18

78u(d)(3).

19

13.

Defendants may transmit payment electronically to the SEC, which will

20

provide detailed ACH transfer/Fedwire instructions upon request. Payment may also

21

be made directly from a bank account via Pay.gov through the SEC website at

22

http://www.sec.gov/about/offices/ofm.htm. Defendants may also pay by certified

23

check, bank cashier’s check, or United States postal money order payable to the

24

Securities and Exchange Commission, which shall be delivered or mailed to

25

Enterprise Services Center

26

Accounts Receivable Branch

27

6500 South MacArthur Boulevard

28

Oklahoma City, OK 73169
4

App. 60

Case 2:15-cv-09420-CBM-SS Document 102 Filed 08/10/17 Page 6 of 6 Page ID #:12707

1

and shall be accompanied by a letter identifying the case title, civil action number,

2

and name of this Court; the defendant as a defendant in this action; and specifying

3

that payment is made pursuant to this Final Judgment.

4

14.

Defendants shall simultaneously transmit photocopies of evidence of

5

payment and case identifying information to the SEC’s counsel in this action. By

6

making this payment, Defendants relinquish all legal and equitable right, title, and

7

interest in such funds and no part of the funds shall be returned to any of the

8

defendants.

9

15.

Pursuant to 15 U.S.C. § 7246, the SEC shall hold the funds and may

10

propose a plan to distribute the Fund subject to the Court’s approval. The Court shall

11

retain jurisdiction over the administration of any distribution of the Fund. If the SEC

12

staff determines that the Fund will not be distributed, the SEC shall send the funds

13

paid pursuant to this Final Judgment to the United States Treasury.

14
15

VI.
16.

Solely for purposes of exceptions to discharge set forth in Section 523 of

16

the Bankruptcy Code, 11 U.S.C. §523, any debt for disgorgement, prejudgment

17

interest, civil penalty or other amounts due by any of the Defendants under this Final

18

Judgment is a debt for the violation by Defendants of the federal securities laws or

19

any regulation or order issued under such laws, as set forth in Section 523(a)(19) of

20

the Bankruptcy Code, 11 U.S.C. § 523(a)(19).

21
22
23

VII.
17.

This Court shall retain jurisdiction of this matter for the purposes of

enforcing the terms of this Final Judgment.

24
25
26
27

Dated: August 10, 2017

_________
________________________
________________________________
HON
B MARSHALL
HON. CONSUELO B.
UNITED STATES DISTRICT JUDGE

28
5

App. 61

Case: 17-56522, 07/31/2020, ID: 11772946, DktEntry: 81, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 31 2020
MOLLY C. DWYER, CLERK

U.S. SECURITIES & EXCHANGE
COMMISSION,

No.

17-56522

U.S. COURT OF APPEALS

D.C. No.
2:15-cv-09420-CBM-SS
Central District of California,
Los Angeles

Plaintiff-Appellee,
v.
HUI FENG; LAW OFFICES OF FENG
AND ASSOCIATES PC,

ORDER

Defendants-Appellants.
Before: LIPEZ,* WARDLAW, and HURWITZ, Circuit Judges.
Having carefully reviewed the motion and supplemental materials, the panel
has concluded that rehearing is not warranted. Judges Wardlaw and Hurwitz have
voted, and Judge Lipez recommended, to deny the Petitions for Rehearing En
Banc. The full court has been advised of the Petitions for Rehearing En Banc, and
no judge of the court has requested a vote. Defendant-Appellants’ Petitions for
Rehearing En Banc are DENIED.
All other pending motions are denied as moot.

The Honorable Kermit Victor Lipez, United States Circuit Judge for
the First Circuit, sitting by designation.
*

App. 62

